<html>
<title> - 1 IN 88 CHILDREN: A LOOK INTO THE FEDERAL RESPONSE TO RISING RATES OF AUTISM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





 1 IN 88 CHILDREN: A LOOK INTO THE FEDERAL RESPONSE TO RISING RATES OF 
                                 AUTISM

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 29, 2012

                               __________

                           Serial No. 112-194

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

80-405 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania
VACANCY

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 29, 2012................................     1

                               WITNESSES

Dr. Alan Guttmacher, M.D., Director, Eunice Kennedy Shriver 
  National Institute of Child Health and Human Development, 
  National Institutes of Health
    Oral Statement...............................................     8
    Written Statement............................................    11
Ms Coleen Boyle, Ph.D., Director, National Center on Birth 
  Defects and Developmental Disabilities, Centers for Disease 
  Control and Prevention
    Oral Statement...............................................    24
    Written Statement............................................    26
Mr. Bob Wright, Co-Founder, Autism Speaks
    Oral Statement...............................................    62
    Written Statement............................................    65
Mr. Scott Badesch, President, Autism Society
    Oral Statement...............................................    72
    Written Statement............................................    74
Mr. Mark Blaxill, Board Member, Safeminds
    Oral Statement...............................................    77
    Written Statement............................................    79
Mr. Bradley McGarry, Coordinator of the Asperger Initiative at 
  Mercyhurst University
    Oral Statement...............................................    83
    Written Statement............................................    85
Mr. Michael John Carley, Executive Director, Global & Regional 
  Asperger Syndrome Partnership
    Oral Statement...............................................    90
    Written Statement............................................    93
Mr. Ari Ne'eman, President, Autistic Self Advocacy Network
    Oral Statement...............................................    96
    Written Statement............................................    98

                                APPENDIX

The Honorable Dan Burton, a Member of Congress from the State of 
  Indiana, Opening Statement.....................................   115
The Honorable Elijah E. Cummings, a Member of Congress from the 
  State of Maryland, Opening Statement...........................   124
The Honorable Chris Murphy, a Member of Congress from the State 
  of Connecticut, Statement for the Record.......................   126
Mr. Poul Thorsen, M.D., Ph.D., SafeMinds, CDC Researcher_Fugitive 
  from Justice, Background Report................................   127
Indiana University, Department of Psychiatry, School of Medicine, 
  Statement for the Record.......................................   142
Mr. Brian S. Hooker, Ph.D., Biochemical Engineering, Statement...   150
Mr. Bob Wright's response to the Questions for the Record........   158
NICHD, Director Guttmacher, Questions for the Record.............   178
HRSA, Response to Questions for the Record.......................   188
Responses to the Honorable Bill Posey, a Member of Congress from 
  the State of Florida...........................................   190
Responses to the Honorable Patrick Meehan, a Member of Congress 
  from the State of Pennsylvania.................................   200

 
 1 IN 88 CHILDREN: A LOOK INTO THE FEDERAL RESPONSE TO RISING RATES OF 
                                 AUTISM

                              ----------                              


                      Thursday, November 29, 2012

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 2 p.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Burton, Gosar, Labrador, 
Meehan, DesJarlais, Gowdy, Ross, Farenthold, Kelly, Cummings, 
Maloney, Norton, Kucinich, Tierney, Lynch, Connolly, Quigley, 
Davis, Yarmuth.
    Also Present: Representatives Posey, Smith of New Jersey, 
Buchanan, Barrow, Moran and Matheson.
    Staff Present: Ali Ahmad, Communications Advisor; Alexia 
Ardolina, Assistant Clerk; Kurt Bardella, Senior Policy 
Advisor; Robert Borden, General Counsel; Will L. Boyington, 
Staff Assistant; Molly Boyl, Parliamentarian; Lawrence J. 
Brady, Staff Director; Ashley H. Callen, Counsel; Sharon Casey, 
Senior Assistant Clerk; John Cuaderes, Deputy Staff Director; 
Howard A. Denis, Senior Counsel; Adam P. Fromm, Director of 
Member Services and Committee Operations; Linda Good, Chief 
Clerk; Frederick Hill, Director of Communications and Senior 
Policy Advisor; Christopher Hixon, Deputy Chief Counsel, 
Oversight; Mark D. Marin, Director of Oversight; Tegan 
Millspaw, Professional Staff Member; Mary Pritchau, 
Professional Staff Member; Laura L. Rush, Deputy Chief Clerk; 
Scott Schmidt, Deputy Director of Digital Strategy and Press 
Secretary; Cheyenne Steel, Deputy Press Secretary; Rebecca 
Watkins, Deputy Director of Communications; Jeff Wease, Deputy 
CIO; Jaron Bourke, Minority Director of Administration; Yvette 
Cravins, Minority Counsel; Ashley Etienne, Minority Director of 
Communications; Jennifer Hoffman, Minority Press Secretary; 
Carla Hultberg, Minority Chief Clerk; Elisa LaNier, Minority 
Deputy Clerk; Suzanne Owen, Minority Health Policy Advisor; and 
Dave Rapallo, Minority Staff Director.
    Chairman Issa. The Committee on Oversight and Government 
Reform will come to order. This hearing on ``1 in 88 Children: 
A Look Into the Federal Response to Rising Rates'' will come to 
order.
    The Oversight Committee exists to secure two fundamental 
principles: First, Americans have a right to know that the 
money Washington takes from them is well spent; and, second, 
Americans deserve an efficient, effective government that works 
for them. Our duty on the Oversight and Government Reform 
Committee is to protect these rights. Our solemn obligation is 
to hold government accountable to taxpayers because taxpayers 
have a right to know what they get from their government.
    We will work tirelessly in partnership with citizen 
watchdogs to deliver the facts to the American people and bring 
genuine reform to the Federal bureaucracy. This is our mission. 
And I might say today in many cases we're dealing with people 
who, because of this affliction, may never pay taxes, but, in 
fact, their families and others pay for an entire life
    Congress spends a lot of time discussing and debating 
issues and determining by our philosophical beliefs what the 
role of government should be. As we have seen in these debates 
surrounding TARP, stimulus, healthcare reform, these kinds of 
issues ofttimes come down to where you fall on an ideological 
spectrum.
    Today is no such thing. We're having a hearing focused on 
something that spans the ideological left to the ideological 
right. We're drawing attention to something that has no 
political affiliation, no partisan allegiance, and sometimes, 
and we believe today, not nearly enough focus on something that 
does not shorten life, but dramatically or even slightly, but 
usually more than slightly, reduces the quality of life both 
for the individual and for their families.
    I'm a father. As far as I know, I'm one of the fortunate 
ones; I'm not the 1 in 88. But right now, if the numbers are 
accurate, and if they continue to grow from the now 1 in 88 
that in some way are ASD affected, we, in fact, have an 
epidemic. It could be that some of the 1 in 150 at the start of 
the previous century was too low; that, in fact, people were 
simply not diagnosed. But few people believe that, in fact, 
there aren't factors in our society, in our behavior, in the 
air we breathe, the water we consume or others that are 
affecting how many people will be afflicted.
    We're going to hear from a distinguished panel first of 
people who do this for a living, try to get to the causes, 
prevention--I won't say cure today, but at least the treatment, 
the understanding, and perhaps in some cases truly something 
that would mitigate their suffering.
    I know they're frustrated. Congress, although we put nearly 
a quarter of a billion dollars a year directly into research, 
has not put the kind of dollars, perhaps, that could bring 
specific outcomes sooner.
    On our second panel, a number of individuals will say that, 
in fact, one of the problems is we're looking on one side of 
the equation and not nearly enough on what to do for the 
victims of various parts of autism. The fact is they're all 
right. There is not enough money being placed on the various 
possible causes of autism. There is not enough study. Our 
government does not collect statistics as well as perhaps 
someday soon we will so that, in fact, we can find out what the 
true number is, crosscheck every aspect of how that number, 
which is a human being, came to be afflicted.
    The truth is we have a lot to do. I will not claim that I 
have come here timely. This is the last few days of my first 2 
years as chairman, and this is our first hearing. What I will 
promise you here today is that we will stay involved in this 
issue. We will stay involved through staff and through, if 
appropriate, additional hearings.
    I also would say to our first distinguished panel that one 
of the most important priorities I place today is, in fact, 
that we work with you and help you in this process; that we be 
a conduit to the rest of Congress on this important issue.
    In a few moments I'll be swearing in--I'm sorry--I'll be 
recognizing by unanimous consent a number of Members who would 
not ordinarily be here at a hearing because they are involved 
in this issue but serve on other committees.
    Additionally, I want to apologize to all of those people 
who, rightfully so, would be well to be heard here today. I 
could have had a second panel of at least 20 witnesses from 
organizations and brought from affected individuals. We had the 
difficult job of selecting just six, and, as the ranking member 
will undoubtedly agree, six is already a fairly large single 
panel. That's one of the reasons I pledge to you today that any 
organization or individual that in the next 7 days provides to 
us, as required by our rules, in electronic format--or if you 
give it to us in paper, we will try to scan it--we will include 
your statements and your information in the record. We will 
hold the record open so that the many who could not be heard 
live in testimony will, in fact, be at least in the record.
    I want to particularly recognize Brian Hooker with Focus 
Autism, the American Academy of Children, and--I see it's a 
long, long title. I'm sorry--who, in fact, has been one of the 
people who has championed for today's hearing, and a number of 
others. They've been essential in my getting a better 
understanding.
    I also would like to thank--and we will be recognizing two 
witnesses--or two Members on each side--the former chairman of 
the full committee, Dan Burton, who years ago began a process 
of focusing on some aspects of this terrible disease.
    We, in fact, don't know enough. Our goal is to know more. 
Today is but a down payment on that.
    With that, I'd like to thank the ranking member for his 
assistance in putting together today's hearing and recognize 
him to his opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman. And I do 
thank you for holding today's hearing.
    Before I get started, I want to pay special note, as you 
have already done, to our friend who is leaving, Mr. Burton. 
Over my 17 years on this committee, this has been an issue that 
he has constantly put forth and constantly made sure that we 
tried to address as best we could.
    So, Mr. Burton, I want to thank you for your vigilance, and 
I want you to know that although you may be leaving the 
Congress, as the chairman has said, we will continue to fight. 
And I know you will, too.
    Mr. Chairman, we have learned much about autism spectrum 
disorders over the past decade. Taxpayer-sponsored research has 
identified risk factors and evaluated therapies to assist with 
some symptoms. Physicians and parents now have a better 
understanding of the developmental signs and the symptoms 
allowing for earlier detection. And educators have experience 
with new methods and approaches for assisting children with 
autism.
    Congress has also acted to help individuals with autism and 
their families in significant ways. In 2010, we passed the 
Affordable Care Act, which contained significant new 
protections. Insurers may no longer discriminate against 
individuals based on preexisting conditions. Insurers may no 
longer impose lifetime caps on healthcare coverage. New plans 
must include screening for autism without additional costs to 
the parents. And young people diagnosed with autism spectrum 
disorders may remain on their parents' health insurance plans 
until they are 26 years old. These are real and significant 
protections that will improve the lives of millions of American 
families.
    Even with this progress, there is still more to learn, and 
there is still more to do. While autism affects all racial, 
socioeconomic, and ethnic groups, some studies have shown that 
African-American, Hispanic, and Asian children are less likely 
to receive an early diagnosis. These delayed diagnoses cause 
minority children to be further behind in the development of 
language and motor skills. We must be vigilant in emphasizing 
early detection and intervention for all our children, as an 
early diagnosis can make a critical difference in the lifelong 
development of a child.
    We must also continue to invest Federal research dollars in 
new and evolving therapies to improve the lives of those with 
autism spectrum disorders. In my district we house the Kennedy 
Krieger Institute, an internationally recognized institution 
dedicated to improving the lives of individuals with 
developmental disorders. These institutions improve the quality 
of life, education, and continued development of those affected 
by autism spectrum disorders, and we must continue to support 
that.
    Today's hearing is an opportunity to examine what has been 
done about autism spectrum disorders to date and what more 
needs to be done in the future. There are many experts, 
individuals, and groups who can help us in this effort.
    And I want to take this moment to thank all of you for 
being here. As the chairman said, there were so many people 
interested in this issue, so many who wanted to speak. But I 
want to say to you what I said to Bob Wright of Autism Speaks a 
little earlier today. I thank you for caring about somebody 
other than your children and yourselves, because what you are 
doing here today is raising this issue so that other children 
other than those--or other folks other than those that may be 
in your own families, maybe your friends, will benefit in the 
future. In other words, you are touching the future, and you 
are making it possible for those who are going through the 
autism spectrum disorders to have a better future. And so I 
thank you all for what you are doing.
    And as I said to Bob Wright, you must stay the course. One 
of the things that I have learned from being in Congress these 
17 years is that in order for these causes to move forward, you 
have to keep banging the drum, and you must drum--keep banging 
louder and louder and presenting your case so that after it's 
all over, there's not, as my mother would say, motion, 
commotion, emotion, and no results.
    I want you to be successful in what you're doing. Life is 
short. And so what we must do is try to use our energy so that 
we can get the best possible results. And I am so glad the 
chairman said what he said about sticking with this, addressing 
it, and we encourage all of you to work with us as we move 
forward.
    And with that, Mr. Chairman, I thank you.
    Chairman Issa. I thank the gentleman.
    I now recognize the former chairman of the full committee 
Mr. Burton for 5 minutes.
    Mr. Burton. Thank you, Mr. Chairman.
    Let me start off by saying, contrary to what has been 
stated in the media over the years, I am not against 
vaccinations. I believe that vaccinations have a very important 
place in our society and have given us one of the best health 
regimens in the history of mankind. People live longer and live 
better and have less disease because we have vaccinations.
    What we have always opposed is putting toxic chemicals or 
metals in the vaccinations. Thimerosal contains mercury. When I 
was a boy, we used to have mercury in thermometers. And they 
said if you break that thermometer, and the mercury gets on 
your hands as years went by, that was toxic.
    In Indianapolis, we had a school where the--in the chemical 
laboratory in the health science room, they broke a vial that 
had some thimerosal in it. They evacuated the school, they 
burned the clothes of kids that came in contact with it, and 
the fire department came in with all kinds of equipment to make 
sure they weren't exposed to it.
    Women who are pregnant, they say don't eat fish that has 
mercury in it, and they caution them that there are certain 
kinds of fish you don't eat. You don't drink water that has any 
mercury it in.
    There's all kind of reasons not to be exposed to mercury, 
and yet we continue to put it in vaccinations as a 
preservative.
    In 1929, they came up with thimerosal. They tested it on 29 
people that had meningitis. They all died of meningitis, but 
they said that mercury in the vaccinations or the thimerosal 
didn't cause any of the problem. It was not a contributing 
factor. So ever since 1929, it has never been completely 
tested, and they continue to use it in vaccinations. It wasn't 
so bad when a child got 1 vaccination or 2 or 3, but when they 
get as many as 28 or 29 before they go in the first grade, it 
really hurts them. It causes a cumulative effect. The brain 
tissues do not chelate it. It stays in there, and it causes 
severe, severe problems.
    Now, I had, during the chairmanship which I had in this 
committee, when I was chair for 6 years, we had about 4 years 
of hearings. We had people from all over the world, scientists 
from every part the world, doctors from every part of the 
United States who testified. And people from CDC and FDA said 
there's no evidence that the thimerosal causes any neurological 
problems in people who are vaccinated.
    And then we kept on and kept on, and finally we had some 
people from FDA and CDC who came and testified and said there 
is no--get this word--there is no conclusive evidence that the 
mercury in the vaccinations causes neurological disorders. No 
conclusive evidence.
    Now, that word ``conclusive'' ought to stick in everybody's 
minds, because what it means is there is a possibility. And my 
question has always been, and I am convinced, that the mercury 
in vaccinations is a contributing factor to neurological 
diseases such as autism and Alzheimer's. I'm convinced of it 
after all those years we had hearings.
    But that word ``conclusive,'' ``there is no conclusive 
evidence,'' creates a doubt. And my question to the presidents 
and CEOs of pharmaceutical companies has always been, if 
there's any doubt, if there's any doubt that the mercury in 
vaccinations can cause a neurological problem, then get it out. 
You shouldn't put mercury in any form in the human body, 
especially in children in vaccinations, or adults, in my 
opinion.
    When we get a vaccination for flu, every year we get a flu 
vaccination, we have thimerosal, fellows. I don't know if you 
know that or not. They are injecting a certain amount of 
mercury in your body, and over a period of time, I believe it 
does have an adverse impact on the neurological system of 
adults, and I think it's a contributing factor to other 
diseases, such as Alzheimer's.
    Let me just say that the thing we need to do is always err 
on the side of safety. If the pharmaceutical industry were to 
go to single-shot vials, then you would eliminate the 
possibility of neurological problems from vaccinations because 
there wouldn't be any mercury in it.
    And the last thing I want to say real quickly--I've got 27 
seconds--is we passed a Vaccine Injury Compensation Fund to 
compensate those people who are injured by vaccinations, and it 
was supposed to be something that was--people could work with 
the government to get that money. The pharmaceutical companies 
were putting money into that fund. But it's so hard for a 
person who's had a damaged child or a damaged adult to get any 
money out of that fund. It's unbelievable. And we need to 
reevaluate that fund to make sure people who are damaged by 
mercury in vaccinations need to have access to that so they can 
at least have some compensation to help with the rest of their 
lives. These people are going to live 60, 70 years, and they 
are going to be a burden not only on the families, but on 
society itself.
    Chairman Issa. I thank the gentleman. The gentleman yields 
back.
    I now ask unanimous consent that our colleagues, Mr. Posey 
of Florida, Mr. Barrow of Georgia, and Mr. Matheson of Utah, be 
allowed to sit on the dais and ask questions at the conclusion 
of other seated Members. Without objection, so ordered.
    It's now my pleasure to recognize the distinguished 
gentleman from Illinois Mr. Davis for 5 minutes.
    Mr. Davis. Thank you, Mr. Chairman. And I thank you for 
calling this hearing.
    As one who has spent much of my adult life working as a 
professional in the areas of health planning, health research 
and delivery, I firmly believe that the Federal Government has 
an important role to help understand autism spectrum disorders 
and to address the needs of our citizens with autism across 
their life spans.
    I, too, want to commended the former chairman of this 
committee, my good friend Dan Burton, for using his position as 
chairman and beyond to focus on this particular issue and cause 
the committee and others to continuously take a hard look at 
it.
    Dan, I commend you for your efforts and certainly wish you 
well as you revert back to private life.
    I'm very proud to represent a premier institution involved 
in the research and service provision of people with autism, 
specifically the Therapeutic School and Center for Autism 
Research operated by the Easter Seals in my congressional 
district as a part of the Illinois Medical District, which is 
the largest medical district in the country.
    This one-of-a-kind facility is unique in the Nation because 
it combines on a single campus educational, research, training, 
early intervention, school-to-work transition, and independent-
living capabilities. The continuum of services to persons with 
autism is impressive and will help advance a research-driven 
context for teaching, learning, and clinical and medical 
interventions related to autism.
    As an ardent advocate of persons with all types of 
disabilities--physical, mental, or developmental--I strongly 
supported the provisions of the Patient Protection and 
Affordable Care Act that protect families and individuals 
affected by autism spectrum disorders.
    I want to thank all of the witnesses for coming to join 
with us.
    Again, Mr. Chairman, I thank you for calling this hearing 
and look forward to our discussions here this afternoon, and I 
yield back the balance of my time.
    Chairman Issa. If the gentleman would yield his remaining 
time to the gentleman from Ohio, I would appreciate it.
    Mr. Davis. I would be delighted to do so.
    Chairman Issa. Mr. Kucinich is recognized for 2 minutes.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    Having had the opportunity to work with Mr. Burton on this 
for the last 10 years, I remember well, as I'm sure Mr. Burton 
does and some members of this committee do, a time when a 
provision was snuck into a bill on a homeland security that 
essentially shielded from lawsuits the manufacturers of 
thimerosal. This is 10 years ago. And you know what? No one of 
the Members that have been here less than 10 years, no one knew 
where that provision came from. It came out of nowhere and 
ended up getting buried in a conference report, and, of course, 
it passed.
    And, you know, I mention this because it's not as though we 
just discovered this matter. And while I salute the chair for 
holding this hearing, we didn't just discover this. And my own 
theory is while there are studies that are out there that are 
implicating environmental factors in autism, think about this 
for a minute. We know, as Mr. Burton laid out, the component of 
thimerosal that--one of the components supposedly to stabilize 
it is mercury. Well, we all know that mercury is more than a 
contaminant, it's an environmental toxin. But it doesn't only 
exist in liquid form. You know, mercury can also be inhaled. 
And I would guess, and this is just my theory, that we're not 
only talking about drug manufacturers here, we might be talking 
about coal companies, too.
    You know, we have to be aware. There are reasons why we--
why this Congress and this government has not effectively 
addressed this issue, and when you have Lilly and others, Eli 
Lilly and others, contributing millions of dollars to try to 
affect the outcome of elections.
    I will tell you, while I--I salute this chair for taking 
this on, because at the bottom of this you have special 
interest groups who would resist any deeper research on it 
because it's going to affect their bottom line. Meanwhile, you 
have children all over the country turning up with autism.
    So this is a new beginning, I salute the chair for making 
it, but this goes way beyond thimerosal, and you can start 
thinking about coal. Thank you.
    Chairman Issa. I thank the gentlemen on all sides.
    I now ask unanimous consent that our colleague from New 
Jersey Mr. Smith be allowed to participate in today's hearing. 
Without objection, so ordered.
    And I will announce that if any individuals would like to 
be in a little more comfortable situation, we do have an 
overflow room. And if they would just let our staff know, they 
would make sure that if they gave up their seat here, that they 
would be able to be in the overflow room. It may be more 
comfortable for some of our guests.
    I now turn to our first panel.
    The distinguished Dr. Alan Guttmacher is Director of the 
Eunice Shriver National Institute of Child Health and Human 
Development at the National Institutes of Health. And I 
actually knew the namesake of your organization during her 
time.
    And Dr. Coleen Boyle is Director of the National Center of 
Birth Defects and Developmental Disabilities at the CDC.
    With that, pursuant to the requirements and rules of this 
committee, would you please rise to take the oath, and raise 
your right hands.
    Do you both solemnly swear or affirm that the testimony you 
are about to give will be the truth, the whole truth, and 
nothing but the truth?
    Thanks. Please be seated.
    And let the record indicate both witnesses answered in the 
affirmative.
    You are important witnesses, and we will not stop you if 
you go slightly over 5 minutes. But we do have a large second 
panel, and I would ask that you bear in mind that all of your 
opening statements and additional extraneous material you may 
choose to submit to us will be placed in the record. So if you 
abbreviate or go off message, it doesn't change the official 
record for you.
    With that, Dr. Guttmacher, you are recognized.

                       WITNESS STATEMENTS

                  STATEMENT OF ALAN GUTTMACHER

    Dr. Guttmacher. Thank you, Mr. Chairman. I'm also a 
pediatrician and medical geneticist, and a member of the 
Interagency Autism Coordinating Committee, or IACC, 
reauthorized most recently by the Combating Autism 
Reauthorization Act of 2011.
    Let me thank the Congress for its continued support of 
research and other activities regarding autism spectrum 
disorders. That support has made possible remarkable advances 
in autism research and helped to better identify and meet the 
needs of people with ASD and their families.
    ASD includes diverse conditions that share distinctive 
styles of or impairments in communication skills and social 
interactions, as well as restricted, repetitive, or stereotyped 
behaviors. The combination and degree of impairments vary, 
creating an array of conditions that range from what many would 
see as normal to significantly disabling. Two decades ago ASD 
was thought rare. Today, with CDC's latest prevalence 
estimates, it is a national health priority.
    The IACC plays a pivotal role in bringing together Federal 
agencies, nonprofit organizations, and the public to identify 
priorities and strategies to address them. It includes 
individuals on the autism spectrum; parents of children and 
adults with ASD; other advocates, researchers, and service 
providers; and officials from Federal agencies.
    The IACC welcomes public comment at all full committee 
meetings, regularly invites written public comment, and holds 
town halls. Thus, a diversity of perspectives on ASD informs 
IACC activities and recommendations. It is a committed group. 
While the law requires 2 meetings a year, the committee and its 
subcommittees meet as many as 17 times a year.
    The law charges the IACC to update a strategic plan 
annually. We are drafting, as always, with autism community 
input, a 2012 update to reflect the latest advances, remaining 
gaps, and emerging needs in autism research. The plan 
encompasses priorities from fundamental biology to services 
across the life span.
    Over the past decade autism research funding has grown 
substantially. The NIH leads Federal research efforts on ASD, 
investing $169 million in fiscal year 2011, three times more 
than 10 years ago. In 2009 and 2010, $122 million in additional 
American Recovery Reinvestment Act funds were also invested.
    As Congress has emphasized, early diagnosis and 
intervention are critical. This year NIH-funded researchers 
identified brain pattern aberrations at as early as 6 months of 
age in infants who went on to develop autism, the earliest such 
changes ever recorded in autism, and one of a number of recent 
findings to suggest that the factors causing autism may operate 
very early in development.
    Last year researchers demonstrated that doctors' offices 
can use a short questionnaire to screen inexpensively for ASD 
at the 1-year well-child visit. Another promising diagnostic 
tool, a 1-minute test to detect eye-gaze patterns specific to 
autism, had nearly 100 percent specificity in infants as young 
as 14 months.
    But early diagnosis is viable only if effective 
interventions are available. Recent ASD trials have validated 
early interventions to improve health outcomes and quality of 
life. For instance, a recent behavioral intervention study 
showed improved IQ, language, and social development in young 
children. And progress is also being made on interventions for 
adults. A recent study showed, for instance, that for the many 
adults with ASD who have impaired ability to recognize faces, a 
computerized training program improved facial recognition 
skills.
    Many recent advances have come from NIH's Autism Centers of 
Excellence program, which currently supports nine centers and 
networks across the country, with two additional awards 
expected in 2013.
    The research covers a variety of topics aligned with the 
IACC's strategic plan, including nonverbal ASD, genetic and 
environmental risk factors, potential treatments in determining 
why ASD is five times more common among boys.
    We do not know the causes of ASD, but recent findings 
highlight the need to focus on both environment and genetics. 
NIH and CDC have established large research networks to collect 
extensive data on environmental exposures and health outcomes, 
and conduct powerful analyses to identify factors that 
contribute to autism. Those networks explore possible causative 
factors in the environment before, during and after pregnancy. 
Just this week one of these networks published a study that 
suggests prenatal and early-life exposure to car emissions is 
associated with autism.
    On the services front, HRSA has invested substantially, 
improving physical and behavioral health of people with ASD, 
practitioner training and service provision. In fiscal year 
2012, Congress appropriated over $47 million to HRSA for autism 
and other developmental disorders. This supports 43 
interdisciplinary training programs, which provide services and 
trainingto 41 States and include autism intervention projects 
for underserved populations.
    Federal agencies also use public-private partnerships to 
maximize our work, such as NIH's National Database for Autism 
Research, which coordinates with other autism data repositories 
to enhance researchers' access to data. Programs like these 
that involve collaboration with patients and families bring 
together hundreds of researchers and clinicians with tens of 
thousands of people nationwide affected by ASD.
    The Administration of Intellectual Developmental 
Disabilities, with help from several nonprofit organizations, 
supports the AutismNOW Project, offering a call center, Web-
based clearinghouse of resources, and twice-weekly autism 
webinars. The NIH-supported Association of University Centers 
on Disabilities is improving early identification of autism 
through 25 Act Early Ambassadors who train physicians in 
identifying, diagnosing, and managing ASD.
    In conclusion, since the establishment of the IACC, a wide 
variety of research, service, and education expertise have come 
to bear on autism. Research is rapidly translating to practical 
tools for use in the clinic and the community. Federal agencies 
are coordinating efforts to identify best practices to support 
the lifelong education, health, and employment needs of people 
on the spectrum.
    Thank you for this opportunity to provide testimony on such 
an important topic.
    Chairman Issa. Thank you, Doctor.
    [Prepared statement of Dr. Guttmacher follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Issa. Dr. Boyle.

                   STATEMENT OF COLEEN BOYLE

    Ms. Boyle. Good afternoon, Chairman Issa, Ranking Member 
Cummings, and distinguished members of the committee. Thank you 
for the opportunity to be here today. I am Dr. Coleen Boyle. 
I'm an epidemiologist and Director of the National Center of 
Birth Defect and Developmental Disabilities at the Centers for 
Disease Control and Prevention. CDC works to keep America safe 
from health threats of all kinds.
    Our FY 2012 autism budget is about $21 million, and today 
I'm going to describe how we use those funds.
    Autism spectrum disorder, ASD, is an important public 
health concern in the United States. ASD is a group of 
developmental disorders characterized by unusual patterns in 
communication, behavior, and attention. While there's no known 
cure, research is yielding innovative screen tools to detect 
ASD in early childhood and new behavioral therapies that can 
improve outcomes.
    CDC data indicate that more children are being identified 
with an ASD than previous years. The toll of ASD is significant 
and has profound implications for affected children and their 
families. CDC works steadfastly to alleviate this burden by 
tracking ASD, promoting the early identification, and 
addressing the unanswered questions through the research.
    CDC supports ASD surveillance or tracking in 12 States: 
Utah, Colorado, Arizona, Missouri, Wisconsin, North Carolina, 
New Jersey, Maryland, South Carolina, Arkansas, Alabama, and 
Georgia. Through our Autism and Developmental Disabilities, or 
ADDM, Network. ADDM's goal is to draw comparable, population-
based prevalence estimates in different sites over time.
    In March of this year, CDC released updated estimates of 
the prevalence of--from the ADDM Network, based on our 2008 
data, indicating that 1 in 88 children had been identified with 
an ASD. This is greater than the prevalence of 1 in 10--1 in 
110, released in 2009, based on 2006 data, and 1 in 150, 
released in 2007, based on 2002 data. While there's no simple 
explanation for the increase, we know that it is due at least 
in part to improved diagnosis and increased recognition.
    Data from the ADDM Network provide more than just a 
prevalence estimate, and because of this data, we know that ASD 
remains nearly five times more common in boys than girls. We 
know that the largest increase over time are among Hispanic and 
African-American children and children without intellectual 
disability. We know that the prevalence varies widely, the 
identified prevalence varies widely, from 1 in 210 to 1 in 147, 
and that although more children are being diagnosed at earlier 
ages, there are far too many that are not diagnosed until it's 
too late to receive the full benefit of early services.
    Overall it's clear that families and children need help, 
and our data is helping to provide that. Research tells us that 
the earlier a child is connected to services, the greater the 
benefit. CDC works to increase early identification by offering 
free tools and assistance to States through our ``Learn the 
Signs. Act Early.'' program. We provide these tools to 
healthcare professionals, childcare providers, and parents, 
with a focus on minority and economically disadvantaged 
populations.
    CDC is also working with our Federal partners to provide 
national goals in early screening, diagnosis, and service 
enrollment, giving communities as well as the Federal 
Government a benchmark to measure progress.
    To identify causes of ASD, we must first understand the 
risk factors. CDC's Study to Explore Early Development is the 
largest epidemiologic study of ASD in the country, and it 
involves sites in Georgia, North Carolina, Massachusetts, Iowa, 
California, and Pennsylvania.
    CDC works to identify factors that put children at risk, 
including genetics, environmental, maternal health, and 
behavioral factors, with a special emphasis on the interaction 
between environment and genetic factors.
    We are an active member in the Autism Coordinating 
Committee, and we really provide that epidemiologic and public 
health perspective.
    CDC contributes to the development of the IACC Strategic 
Plan for Autism Research, and our activities are key components 
of that plan.
    ASD is an important and an immediate public health concern. 
More children than ever are being identified, and families and 
communities are struggling with the financial burdens, the 
complex healthcare decisions, and the service needs. We know it 
is frustrating to have more questions than answers, and we 
share that frustration and are committed to improving our 
understanding of what is putting our children at risk.
    CDC will continue to document the burden of ASD in States 
through our ADDM Network; develop resources and help States 
improve early identification through our ``Learn the Signs. Act 
Early.'' program; and maintain our important epidemiologic 
focus through the SEED research network to understand why some 
children are more likely to develop autism.
    Thank you for the opportunity to present this testimony, 
and I'd be happy to answer questions.
    [Prepared statement of Ms. Boyle follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Issa. Thank you both.
    I'm going to recognize myself first. And I'll ask both the 
experts to forgive me for being very basic in a couple of 
questions, but I hope that it sheds a balance on this hearing.
    Dr. Boyle, as far as you know--or either of you--is 
autism--does autism in history predate all vaccines? In other 
words, was there autism before there were vaccines?
    Ms. Boyle. I would turn to my colleague, my physician 
colleague, but I would say definitely.
    Chairman Issa. Doctor?
    Dr. Guttmacher. Autism was first not described until 1943 
by a constituent, actually, of Mr. Cummings at--Leo Kanner, who 
was a child psychiatrist at Johns Hopkins, who first noticed 11 
individuals with similar patterns of behavior that he described 
and coined the term ``autism'' to describe.
    Chairman Issa. But were those likely or documentably things 
we can look back into history--and I want you to say with 
certainty or with likelihood, because I think it's important 
for all the people that are dealing with this question.
    Dr. Guttmacher. Absolutely. I know that Dr. Kanner's view 
and, I think, others' is that this probably existed before, 
just no one had noticed the pattern. There's only descriptions 
of individuals from well before the immunization era who would 
have what we would take today to be autism-spectrum-type 
disorder. It's not well documented before. I think there's 
heavy suspicion that it existed before vaccination.
    Chairman Issa. Okay. Now I'm going to follow up with that.
    Is it fair to say that today the state of science--and I 
think Dr. Boyle said this very well--is that autism of various 
types has multiple causes, in each of your opinions?
    Dr. Guttmacher. Absolutely. And they have both a genetic/
biological basis and also an environmental basis.
    Chairman Issa. So, again, I am trying to be very basic, and 
I apologize, but I think for all of us as we go through this, 
it's important to sort of build on something.
    So it's fair to say that autism, like cancer or like other 
diseases often, is a group of afflictions, meaning that 
although the characteristics may be similar, in fact, there are 
multiple causes and, thus, likely multiple treatments and/or 
multiple forms of prevention.
    Dr. Guttmacher. I think it's not only fair to say, but I 
think, as simple as that question may be, it's the most 
important question in some ways to ask, because it explains 
some of the challenge in trying to figure out autism, but also 
points the direction to do it. Until we can better understand 
the biological bases of these different forms of autism, it 
will make it difficult to understand any of them.
    Chairman Issa. I want to ask each of you one of the 
toughest questions, and I inherit this series of hearings, but 
I want to inherit them new.
    Is it fair to say that we can rule nothing out in absolute 
terms from being a contributor?
    You heard the gentleman from Ohio talk in terms of mercury 
coming in air form. Obviously, the former chairman spoke of the 
possibility of vaccines having a direct relationship.
    Is it fair to say that these multiple causes that we 
suspect, the fact is we can rule nothing out, including--and 
I'm not stating as a fact, I really am stating as a question--
including things we haven't yet looked at? Is that possible 
that there are yet more causes that will be viewed, and nothing 
can be ruled out?
    Dr. Guttmacher. It's certainly true that those things we 
haven't looked at yet we can't rule out for sure. I think that 
there have been some things looked at very heavily that, while 
it's always difficult for science to rule anything out as a 
possibility for occasional individuals, I think the sort of 
gradations of suspicion, and there's some various kinds of 
possible factors have been looked at so carefully that we can 
rule them out as being involved in the vast majority of 
individuals.
    Chairman Issa. I'm going to ask one last question. And I'm 
really feeling like this is so far above my head that as I 
continue to study and work with people, I'll learn more. But 
one of them that wasn't mentioned in either of your opening 
statements, but I believe is now under suspicion, is the age of 
parenting. Would either of you feel comfortable talking in 
terms of we as a society are waiting 'til later, both on the 
male and female side, to have children, and science is 
cooperating with us. Do you believe that that is an area that 
needs further study?
    Dr. Guttmacher. It does need further study. There is 
certainly some evidence to suggest that paternal age 
particularly does have some correlation with rate of autism. 
It's clear, though, that's not a factor. I can note many, many 
older fathers have children who do not have any form of autism; 
many younger fathers have children who do have quite frank 
autism. So it's--in any given situation, it's not, you know, 
the factor. But does--in a public health sense does it play a 
role? It does.
    Chairman Issa. Thank you.
    And I apologize. I didn't have time to ask any questions 
related to what to do with people once they are afflicted. And, 
quite frankly, I don't think I've done enough justice to the 
fact that there are so many interest groups, each of which is 
fragmented into components, that I didn't even mention here 
today.
    I thank the ranking member and would recognize him here for 
his questions.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Just kind of following up on what the chairman just asked. 
You know, in talking to the folks behind you, there seems to be 
a frustration. I see everybody's--I wish you could see them 
behind you. They're shaking their heads. There is frustration 
with regard to coordination of efforts, with regard to, you 
know, research.
    And I guess what I--and I--I hinted in my opening statement 
that I want us to try to move towards trying to make a 
difference. I know that's why the chairman feels, too. You 
know, we don't know how long we're going to be sitting on these 
panels and in the Congress, but we want to use our time 
effectively and efficiently.
    And what can we do to help the folks behind you get to the 
coordination, the kind of things that they are looking for to 
have an impact, because they are thoroughly frustrated. So, I 
mean, can you help me with that? Can you help us?
    Dr. Guttmacher. I think we can also share your frustration. 
I think all of us are frustrated at the rate of progress in 
terms of really understanding autism, having interventions that 
make a difference. So we clearly share that frustration. 
Perhaps because we're involved in it, we have, obviously, a 
different perspective on the frustration, but we not only 
understand that others have it, but do share it.
    I think in terms of what the Congress can do, I think some 
of you have already done, clearly, in terms of funding for this 
area, but also, I think, in terms of the role of the 
Interagency Autism Coordinating Committee in specifically the 
area you mention the frustration; that is, coordination. I 
think the IACC has done a very good job in its relatively few 
years of existence, in fact, in coordinating both work among 
Federal agencies, but also coordinating the Federal agencies 
and the advocacy organizations, individuals, and others to 
really try to come up with the community viewpoints about what 
should the priorities be within research; what should the 
priorities be in terms of service delivery, intervention, et 
cetera. So that I think that while there's always room for a 
better coordination, I think the coordination among agencies is 
much better than it was a number of years ago. And, in fact, 
across other areas of scientific research----
    Mr. Cummings. But you also said we can do better.
    Dr. Guttmacher. I think we can do better, but I think we 
are doing a lot better. I would point to this as actually one 
of the areas in science where there is particularly good 
coordination at this point in time. Good enough? No. But 
particularly good? Yes.
    Mr. Cummings. Let me ask you this: Major Federal efforts to 
confront significant health crises have been mounted in the 
past. Breast cancer, Alzheimer's and AIDS have all been a focus 
of major efforts. How do you think the Federal effort to 
confront autism spectrum disorders compares to those other 
Federal efforts?
    Dr. Guttmacher. Well, certainly scientifically they each 
present their own challenges and their own opportunities, but 
different kinds of challenges. One of the particular ones the 
chairman already referred to in terms of the diversity of 
conditions, they are all lumping as one here. So I think that 
presents its own challenges.
    It also presents some particular coordination challenges as 
well. I think it's hard to compare, you know, one sort of 
disease movement versus another. They need to all, I think, be 
crafted with acknowledgment of the particular qualities of the 
disease or diseases that you're trying to approach.
    Mr. Cummings. Let me ask you--yes, Dr. Boyle.
    Ms. Boyle. I was going to say that, I mean, autism, like 
breast cancer, is a very complex, very complex issue. And 
although it may not seem that, we--with Federal dollars, we've 
made considerable investment in research and programs and 
tracking. So--and we're just starting to see some of the 
benefit from that. We're starting to see some of the research 
come out.
    And, I mean, there really is an explosion of information, a 
lot more to be done, particularly on the environmental 
perspective. A lot more focus has been on the genetics. And I 
think, you know--and that's been a discussion at the IACC 
level. We need to be moving more into the nongenetic-related 
aspects.
    Mr. Cummings. Let me ask you this: The Interagency Autism 
Coordinating Committee is the tip of the spear in the Federal 
efforts to strategically address autism. Is the Committee's 
ability to accomplish its mission hampered by the absence of 
adequate representation from both private and--and nonprofit--
nonprofit sector? And would the Coordinating Committee be 
better positioned outside of NIH since treatment and services 
are important elements in the mission of the Committee? And 
then you can answer that, and I'm finished.
    Dr. Guttmacher. The newly reauthorized Committee is larger 
than its predecessor, and I think that has been an advantage to 
the Committee. It has more membership. I think like any 
committee it struggles with if you were to craft what's the 
perfect membership of the Committee. You struggle with wanting 
to clearly be inclusive, at the same time making the Committee 
effective in terms of size, et cetera.
    I think that the Committee tries to make sure about the 
inclusion by, in fact, inviting public comment at its meetings, 
having town halls, other kinds of things, so that even those 
not represented directly on the Committee have a voice in the 
room.
    Mr. Cummings. Thank you.
    Chairman Issa. Dr. Boyle, do you have anything?
    Ms. Boyle. No. I would agree with that, sir.
    Chairman Issa. I thank the gentleman.
    I now ask unanimous consent that the distinguished 
gentleman from Virginia Mr. Moran be allowed to sit in this 
hearing. Without objection, so ordered.
    I now would also ask unanimous consent that Mr. Burton has 
waived 2 minutes of his 5 minutes so that he can show a video 
before he begins. So if the video could be shown, and then the 
gentleman will have 3 minutes afterwards.
    Mr. Burton. Thank you, Mr. Chairman.
    Let me preface my remarks by saying I know there's many 
causes of autism, but the one we're talking about today, as far 
as I'm concerned, is the mercury in vaccinations and in the 
environment. And the University of Calgary in Canada has done 
this research, and I want everybody in the room, but 
particularly my colleagues, to see what the research shows.
    [Video shown.]
    Chairman Issa. Gentleman may continue.
    Mr. Burton. Thank you very much, Mr. Chairman.
    You know, there's an old saying: One picture is worth a 
thousand words.
    I have read I don't know how many studies on this whole 
issue, and I think I've had some of you doctors before. I 
think, Dr. Boyle, you've been before our committee before, when 
I was chairman. And I have great respect for you and for the 
FDA and HHS. I think you do a great job. But sometimes I think 
maybe outside influences have too great an impact on the 
scientific research that's necessary to find cures for major 
problems.
    Now, we've gone from 1 in 10,000 children known to be 
autistic to 1 in 88. It is worse than an epidemic; it is an 
absolute disaster. And how anybody can look at that study and 
see the actual brain cells deteriorating when put next to a 
very small, minute amount of mercury, it mystifies me. How can 
anybody at the CDC and the FDA watch something like that and 
say that the mercury does not have an impact on neurological 
problems?
    Now, granted, it may be from other things besides 
vaccinations, but vaccinations that contain mercury should not 
under any circumstances be injected into any human being, 
especially children, who have a very fragile immune system. And 
children get as many as 28 or 30 shots before they go to the 
first grade. My grandson got nine shots in 1 day, and it turned 
him into a horrible situation that we found banging his head 
against the wall, couldn't go to the bathroom, all kinds of 
things. These people will tell you all about that.
    So all I would--I would pray to you, beg you to go back to 
FDA and HHS and say, come on, let's get with it. There may be 
other causes, but let's get mercury out of all vaccinations, 
which is a contributing factor. If you do that, and you can go 
to single-shot vials, it costs, what, a penny, 2 cents apiece, 
it won't hurt anything.
    And I don't mind if the pharmaceutical companies get 
legislation passed here that protects them from class-action 
lawsuits as long as they help the Vaccine Injury Compensation 
Fund and get mercury out of these vaccinations.
    Please. I'm leaving. I'm not going to be here anymore. You 
won't have to watch me up here anymore. But please go back and 
work on it, will you?
    Thank you.
    Chairman Issa. I thank the gentleman.
    And now recognize the gentlelady from the District of 
Columbia, Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Actually, I would have liked to have heard the response, 
given how-- but I don't want to take from my time.
    Chairman Issa. I apologize. The gentlelady is right.
    Did either of you have a response? I realize there was not 
an embedded question necessarily there. But if either of you 
want to make a comment on the video if you are familiar with 
it. It will be a part of the record. You could do it 
afterwards. But if you had a comment now, we would certainly 
welcome it.
    Ms. Boyle. Well, I would be happy to make a comment about 
the vaccines themselves. So, since 2001, thimerosal has been 
removed from all vaccines given to children, with the exception 
of a----
    Chairman Issa. Please. We said that the record will remain 
open for all comments, including ones you may want to make as a 
result of this, so you will have an opportunity to voice 
yourself completely.
    Please, Dr. Boyle.
    Ms. Boyle. As I say, with the exception of the multi-vial 
flu vaccine.
    Chairman Issa. Thank you.
    The gentlelady may begin.
    Ms. Norton. Thank you, Mr. Chairman.
    I have a couple of questions that really have to do with 
just who we are talking about.
    It would probably be the case that many, many of these 
children who may have some features of autism were not 
recognized early. And you indicated how difficult it is to 
backtrack and do something about it. So I assume that there are 
millions of people walking around or not.
    Now, where we do recognize what is seen as a disability, 
the IDEA says there must be services provided in school and the 
rest now. So a child might be able to get, I don't know, all 
matter of services, services relating to speech and to 
movement, very primary services. Then this person graduates out 
of school, where there is no IDEA. What does--so I have to 
assume that there must be parents and relatives with such 
children who are not recognized, got whom nothing was done. 
What are we doing about these young people or older who have 
not had any services? Do they have anything like IDEA available 
to them, any services that they automatically qualify for? If 
not, what do we do with them.
    Ms. Boyle. I think that is a real challenge. This topic 
about understanding transition from childhood to adult and sort 
of the services associated, the benefits, the impact of autism 
across the lifespan is really important.
    Ms. Norton. But my question goes to what do we do to the 
child who is no longer a child, 18 or 19, the mother and father 
have done all they could? This is an adult children; these may 
be aging parents. What does that young person do?
    Dr. Guttmacher.
    Dr. Guttmacher. I think, Congresswoman, it is clearly a 
real challenge for our society. And as you well know, your 
historic interest and support for the Down Syndrome Caucus, 
many of the issues you are bringing up here as applied to 
autism are extremely similar, if not identical, to those for 
children who have become adults with any kind of disability.
    Ms. Norton. Except that we can recognize Down syndrome.
    Dr. Guttmacher. Exactly. So that is clearly an advantage of 
having been diagnosed earlier in life and getting services.
    Ms. Norton. What are we doing with these young people, 
Doctor?
    Dr. Guttmacher. Well, the first thing we are trying to do 
is to diagnose more effectively early on.
    Ms. Norton. No, I want to know today. You have such a 
person; they weren't diagnosed effectively, who is 21 years 
old. What do I as a parent do with this young person?
    Dr. Guttmacher. Well, the first question is even if it is 
recognized at the age of 21, often individuals who we would now 
describe as being on the ASD spectrum or simply seeing their 
families having particular character traits or whatever and are 
never, quote-unquote, diagnosed, I think the question for any 
of these, for parents of young adults and for the young adults 
themselves, is trying to find the best fit in society in terms 
of employment, et cetera.
    Ms. Norton. Thank you, Doctor. I have one more question and 
my time is running out. In other words, there is nothing that 
we are doing to them. It looks like we don't have any mandated 
services for them and that it falls--that the Affordable Health 
Care Act may help to provide some medical services. But this is 
tragic if we have not found--not a bridge but a way to 
accommodate an adult who may still become a functioning member 
in some way in society.
    But this is the question, before my time runs out. I have 
often noticed that parents of highly educated people come 
forward and speak up for Down syndrome, middle-class parents. 
Why is that? Is there a difference in who recognizes? Is there 
a difference in who gets it, an ethnic difference, a class 
difference in who gets or recognizes this disease or this 
condition, or is it an across-the-board condition.
    Dr. Guttmacher. It is an across-the-board condition. There 
clearly are issues, again, because it is not always diagnosed. 
Those that have greater access to higher quality medical care, 
since it is usually a medical diagnosis that is made, tend to 
have the diagnosis made more frequently. So those who, for 
various reasons, of barriers to access are less likely to have 
the diagnosis.
    Ms. Norton. What is the minimum age that we should be 
looking to, if we have a child, to see whether autism is 
perhaps there?
    Dr. Guttmacher. As I mentioned in my testimony, there is 
now a checklist approach that is being used right around 1 year 
of age in the hope to make the diagnosis at that point. And we 
hope eventually even younger. The younger we can make it, the 
better.
    Ms. Norton. Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    Dr. Boyle, I think you had an additional statement.
    Ms. Boyle. Well, a couple points on that last one. So we do 
have tools to help parents identify children as early as 
possible. Those are free. They are on our Web site. And the 
most important thing that parents----
    Ms. Norton. They know it. The mother knows it; the father 
knows it. It is, what is available?
    Ms. Boyle. We have information about what to do with it, 
how to have a conversation with your physician, so really 
guiding parents with that.
    Ms. Norton. Thank you, Mr. Chairman.
    In other words, it is up to the family to try to figure it 
out.
    Chairman Issa. I thank the gentlelady.
    And thank God that there are families who care so much, and 
that is always a big part of it.
    With that, we go to our first doctor on the panel, Dr. 
Gosar, for 5 minutes.
    Mr. Gosar. Thank you, Mr. Chairman. First of all, I would 
like to acknowledge my colleague, Mr. Burton, for making this 
instrumental and representing so many people out there.
    One of the things I wanted to ask, Dr. Boyle, in your 
testimony, is I didn't hear a prevalence about diet.
    Ms. Boyle. Excuse me?
    Mr. Gosar. I didn't hear a pertinent aspect of focusing on 
diet.
    Ms. Boyle. Diet. So we do, within the context of our 
epidemiologic study, we do a ask about information about diet.
    Mr. Gosar. It seems to me in the coordination--and I see 
the frustration. I was a practicing dentist for 25 years. I am 
also celiac sprue, by the way, so I can understand their 
frustration. It is mortifying. When you try to go for studies, 
I mean, the coordination of studies is inherently poor, 
absolutely horrible, I mean, even as recently as last year.
    But we have people that are so motivated in these families. 
You know, when I would give post-ops to families, you would get 
about twice the support. With autistic families, they are 
begging for more support. I mean, you are getting tenfold 
heuristic type of aptitude in findings. And I am finding more 
from them than I am from the medical research. And it seems to 
me we are focusing something wrong here.
    We should be focusing on the family. They are telling you 
what is going on. And they are frustrated because the research 
is cylindrical. They are not sharing; they are not coordinating 
at all. And they are telling you what is going on and what is 
wrong. And we should be focusing on the family and utilizing 
that as a coordinating factor.
    Now, I want to get back to diets. You know I have got 
family history with this and the genetic factoring. You know, 
we got to spend more time looking at the genetics, because 
there is a trigger mechanism. And celiac sprue is one of those. 
Looking at casein as well. There are so many things. You cannot 
point to me to a disease factor, point to one of them, I dare 
you, and we will find a dietary problem with it. I mean, 
diabetes, heart disease, I mean, thyroid conditions, you name 
them, MS, you are going to find a dietary aspect.
    So part of the problem we ought to be focusing on is the 
dietary aspects. In aspects--to my colleague from D.C., is we 
ought to be looking at, how do we help parents in a dietary 
format? This is what my experience was. I spent every night 
after my practice closed going through aisles in a grocery 
store looking at everything on the aisle to make sure it didn't 
have a gluten or wheat. Do you know how long that took? It is 
unbelievable what these people have to do, absolutely 
unbelievable. And we got researchers who don't listen to them. 
To me this is just absolutely incredible. And I think it is a 
slap in the face for these people to be looking at those 
aspects.
    And here is how effluent it was: One of my siblings has a 
son they said was autistic. Thank God one of my sisters is a 
physician. In going through this tirade, we found out that she 
had celiac sprue. And she wondered, I wonder if this is the 
problem for her son. Isn't it interesting, we had a kid who was 
diagnosed or labeled as autistic, that as soon as we took him 
off of wheat, gluten, and milk products, this kid sits, reads, 
does everything appropriately. And I think we can manage this 
practice a little differently.
    Sometimes we are in the forest, and we don't even 
understand what we are looking in the trees, is manage these 
disease processes by family, by looking at that as our core 
group, and then start listening to people, asking a question. 
That is what we as physicians were taught to do, is ask 
questions and listen. And I think that is part of the biggest 
problem that we see in this research aspect, is we are not 
listening.
    And I think I see that frustration all over your face. I 
mean, Holy Cow, the genetic aspect. Just to give you an 
example, you know, we were scheduled to be part of a genetic 
study for celiac sprue, which is inherently a big process to 
autism. There are 10 kids in my family. Out of the all the 
grandkids, out of the 17 grandkids, 13 have celiac sprue. You 
would think you would use our family, you would think. Boy, sad 
excuse we didn't. So we are missing the boat here, and we need 
to have better coordination, much better than what I am seeing 
here currently, so thank you.
    Chairman Issa. The gentlewoman yields back.
    Now, I appreciate that this is a hearing that many have 
waited a long time for and that it is popular, but I would ask 
please that we neither have the positive nor the negative from 
here forward if possible.
    And with that, we go to the gentleman from Ohio, Mr. 
Kucinich, for 5 minutes.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    In preparing for this hearing, I was looking at some 
interesting studies and some information to follow up on 
questions of the relationship between autism and environmental 
mercury, namely mercury that is airborne as a result of the 
combustion of coal.
    The United Nations environment program, in a piece called 
``Mercury Control from Coal Combustion,'' says the burning of 
coal is the single largest anthropogenic source of mercury air 
emissions, having more than tripled since 1970. Coal burning 
for power generation is increasing alongside economic growth. 
The releases from power plants and industrial boilers represent 
today roughly a quarter of the mercury releases to the 
atmosphere. This is from a report called ``Mercury Control from 
Coal Combustion.''
    There was a report, actually a study, that was done by the 
University of Texas Health Science Center that showed what is 
called a statistically significant link between pounds of 
industrial release of mercury and increased autism rates. The 
study pointed out that community autism prevalence was reduced 
by 1 to 2 percent with each 10 miles of distance from the 
pollution source.
    Now, the background of this study was that during the time 
period studied by the Texas team, they quoted the USCPA 
estimating environmental mercury releases at 158 million tons 
annually nationwide in the late 1990s. I am waiting for more 
updated figures, but it is probably even greater than that.
    Dr. Guttmacher and Dr. Boyle, when will--first of all, Dr. 
Guttmacher, are you aware of any studies other than this Texas 
study that has created a link between neurotoxic chemicals and 
the environment and increased rates of autism?
    Dr. Guttmacher. I am certainly aware of other studies.
    Look, for instance, the one I mentioned earlier that was 
just published in the last week looking, for instance, at auto 
emissions and proximate auto emissions in pregnancy and early 
in life as a factor in terms of a causal relationship, who 
knows, but clearly an association between that exposure and 
autism rates.
    Mr. Kucinich. But they have probably gone down since you 
have had catalytic converters.
    Dr. Guttmacher. Presumably.
    Mr. Kucinich. I am speaking of coal-burning power plants, 
which are being used and have been used in great frequency over 
the last couple of decades. Now, are you aware----
    Dr. Guttmacher. I certainly do not know all of the studies 
in the autism literature. I would be happy to look into that 
and provide additional information for the record.
    Mr. Kucinich. Dr. Boyle.
    Ms. Boyle. Other than the one from Texas that you are 
referring to from a couple years ago, I am not sure if there is 
another ecologic study like that. There have been a number of 
environmental studies that are at the individual level but not 
at the sort of population ecologic level.
    Mr. Kucinich. Well, it seems to me that if not in this 
Congress, the next Congress, that it would be timely given the 
fact that this issue is out there and the amount of coal that 
has been burned in the last couple of decades, that a study be 
funded, that we actually look at it and determine whether or 
not the University of Texas study is confirmed or disconfirmed.
    The points of this study talk about, of course, exposure, 
neurodevelopment, the pace of neurodevelopment, vulnerability 
with respect to age and also developmental vulnerabilities that 
begin with pregnant mothers. Of course, genetic susceptibility, 
as you pointed out--you know, Dr. Gosar pointed out--that is 
always a factor. But now we know that the amount of emissions 
may be a factor. That is one of the things that is posited by 
this University of Texas study.
    So, Mr. Chairman, as we move forward with this, because 
there is inevitably an amount of work that has to be done here 
that goes way beyond the politics and goes to pure science or 
to science, that I think it would be helpful for us to, for the 
Congress to back a study that would determine once and for all 
whether the degree to which autism is linked to mercury-
releasing sources, specifically the burning of coal and with 
respect to the University of Texas study, the amount of 
emissions and the proximity of those emissions.
    And I just want to say in conclusion that all these 
families who are here, you have Members of Congress on both 
sides of the aisle who are dedicated to trying to find out what 
is going on here and to try to do it in the interest of your 
family and future generations as well, so thank you for your 
presence here.
    Chairman Issa. And thank you, Mr. Kucinich.
    We now go to the gentleman from Pennsylvania, Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman.
    And I would like to thank Drs. Boyle and Guttmacher for 
being here today.
    Let me just start my commentary by saying that as a first-
term congressman we are often impacted by issues that are 
brought to our attention by the constituents we serve. I can 
tell you that I don't know of another issue that has affected 
more of my constituents that have demonstrated a greater degree 
of frustration than this particular issue. And so it is new to 
me, and I am listening to your testimony. But let me ask a 
question. I know that we saw you studied this in 2007. We saw 1 
in 150 children so diagnosed. And then, in 2009, 1 in 110. And 
now we have diagnosed 1 in 88. So just in a short period of 
time--and 1 in 54 boys--have you ever seen anything in which 
there has been such a dramatic progression in the incidence of 
diagnosis in a 6-year period in your experience with the CDC?
    Ms. Boyle. Well, most of my experience actually has been 
within the context of developmental disabilities. And we do 
look at trends and other developmental disabilities.
    Mr. Meehan. Has anything had a trend with this kind of 
accelerating pace?
    Ms. Boyle. Actually, there is a paper published a couple 
months ago looking at trends of all developmental disabilities, 
and the only one that showed an increase was attention deficit 
hyperactivity disorder.
    Mr. Meehan. I am talking, at the CDC, we deal with a broad 
variety of health crises at certain points in time. Has 
anything accelerated in your experience to this degree in a 6-
year period?
    Ms. Boyle. Well, again, relative to my area of expertise.
    Mr. Meehan. How about in general? You are in the CDC. What 
do you know about in general?
    Ms. Boyle. Right. Well, again, thinking specifically about 
what is going on with autism, we have been looking at trends 
over time. And as you point out there has been an increase. We 
do know that some of that increase is due to how children are 
identified and diagnosed in the community so there have been 
changes over time that contribute in part. Our system monitors 
the number of children. We don't have all of the information 
about what is happening in the context that influences how 
children are identified.
    Mr. Meehan. I guess what I am saying is, and these are your 
words not mine, as we have seen this remarkable acceleration 
just in the diagnoses, and in your words, it was, this is a 
public health concern. Would you explain to me why this is not 
a public health crisis, why this isn't an issue that is on the 
front burner of the CDC every day?
    Ms. Boyle. This is a very important issue to the CDC, and 
we are using the strengths of CDC to approach this issue. We 
are monitoring--what CDC does in its excellence is basically 
tracking and monitoring epidemiologic research and prevention.
    Mr. Meehan. Dr. Boyle, thank you.
    Because I know what you are saying is you are supporting.
    Dr. Guttmacher, the facts are clear; this has been 
accelerating at a remarkable pace, at least in terms of the 
diagnoses. What is being done to have a genuine comprehensive 
plan in which we are looking for accountability year to year on 
the progress that is being made in terms of what we are doing 
to better understand this issue.
    Dr. Guttmacher. That is a very important question, 
Congressman. I think part of it again goes back to the IACC 
having been created and asking for it to every year come up 
with an updated plan. I can tell you based, I haven't checked 
my emails in the last couple of hours, obviously, but based 
upon simply the flurry of activity over the last few days 
alone, there really is work among----
    Mr. Meehan. Flurry because of our hearing.
    Dr. Guttmacher. No, no, no. Because it is that time of year 
where we are aware that the year is coming to a close and 
really trying to put together this year's plan in a very 
thoughtful way.
    Mr. Meehan. Who is in charge of this? Who wakes up in the 
morning and says, this is my priority, I am going to drive this 
train and make sure something happens today? Who is in charge 
of it?
    Dr. Guttmacher. I would say there are a number of people 
that are doing it. The head of the IACC is Dr. Thomas Insel, 
who is the director of the National Institute of Mental Health 
at NIH. But there are multiple. And again, I think it shows. 
You asked about how important is this to CDC. It is very 
important. I know how it is important. I can tell you to NIH, 
it is extremely important to NIH, and that is why, in fact, 
there are a number of institutes at the NIH that include autism 
as part of their research portfolio.
    Mr. Meehan. What does it take for us to develop a 
comprehensive national strategy with real accountability and 
timelines?
    Dr. Guttmacher. I would say that, again, the IACC in many 
ways accomplishes that. If you think that that is lacking, then 
I would think it is a question really for the Congress to 
figure out how best to put that together. Because, clearly, as 
I think the hearing appropriately reflects, there are a lot of 
medical issues here. But there are a lot of issues about the 
lives of those who have autism that have nothing to do directly 
with medicine per se.
    Mr. Meehan. I get that. But where is the dynamism in which 
that emerging evidence is being challenged and being used in a 
dynamic concept to hurry to a discovery, at least an advance in 
this, as opposed to what may be just sort of a, I hate to say 
it, and there are so many different aspects, but as an outside 
observer, I see it as being sort of willy-nilly, and this is 
the next thing that gets funded today, and somebody tomorrow, 
as opposed to a real focus on a critical path.
    Dr. Guttmacher. Again, I think that there are multiple 
parties involved in this who are really quite concerned about 
this, who work in a regular way to try to advance this. 
Frustration absolutely is there, absolutely understandable. But 
as Dr. Boyle said, I think in fact in recent years, we have 
seen clearly acceleration in progress in this. Is it 
sufficient? No. Is it accelerating? Yes.
    Mr. Meehan. We have seen it accelerated in diagnoses, so we 
need to have the same intensity I believe.
    Mr. Kelly. [presiding.] Your time is expired.
    Mr. Meehan. Thank you, Mr. Chairman.
    I yield back.
    Mr. Kelly. The chair at this time would ask unanimous 
consent that our colleague from Florida, Congressman Vern 
Buchanan, be allowed to participate in today's hearing.
    Without objection, so ordered. Glad to have you aboard, 
Congressman.
    Now, my friend from Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    I appreciate that. Thank you for our witnesses and all of 
the folks that are taking the time to be here today as well. I 
did want to start by just addressing a concern that my 
colleague Ms. Norton had with what can we possibly do for those 
children that are aging out, so to speak, of the services on 
that. We did have a Higher Education Opportunity Act a couple 
of years ago, a provision that was carried in the House, and 
Senator Kennedy carried it in the Senate, for colleges and 
community colleges to address programs in sustainability for at 
least those on the spectrum that were able to be addressed and 
be helped by that. Unfortunately, in the next iteration of the 
budget, it didn't get funded again. But I think we can all put 
some attention on that and deal with some families at least on 
that, helping people have that ability. And I would look for 
others on this subcommittee that might feel that that is 
worthwhile pursuing on that, and we can do that again and 
perfect it a little better please.
    Dr. Boyle,you mentioned in answer to Mr. Burton's question 
that since 2000, that thimerosal was removed from all of the 
vaccines except the multi-vial for vaccines on that basis. Can 
you answer me why just as a matter of precaution to eliminate 
that whole issue, it isn't removed from them as well?
    Ms. Boyle. I should have said since 2001. And I am not a 
vaccine expert, but my understanding, and I will clarify for 
the record about this, is that the multi-use vials are used--
are needed in certain context from an international or a global 
perspective, but I will clarify that for you.
    Mr. Tierney. If you would, just because why is it a 
necessity that they are used everything, and it could be 
diminished in some way and substituted with others, and 
anything on that basis I think would be helpful on that.
    Also, to either or both of you on that, is there a 
differentiation between incidence of diagnosed autism in other 
countries opposed to the United States? Is it region specific, 
or are there other concerns like that, or is it generally the 
same pervasiveness throughout?
    Ms. Boyle. So in most developed countries that do have data 
on autism, the prevalence has been comparable, about 1 percent. 
There was a recent study that was supported by Autism Speaks in 
South Korea that showed a much higher prevalence, a 2.6, or 1 
in 38, for a prevalence. That was done very differently. It was 
a community screening program or a study versus a different 
method that we use here in the U.S.
    I do want to mention one thing though within the context of 
our monitoring network here in the U.S. The prevalence varies 
considerably, so there are some States that have comparable 
prevalence rates to that South Korea study.
    Mr. Tierney. So what are we doing to try to determine? If 
there are higher rates in some States or some parts of some 
States than others, are there a good number of studies going on 
to find out what is different about the environment in those 
areas than others, and how is that all being determined and 
coming out? What are the outcomes of those studies?
    Ms. Boyle. So a monitoring network continues to track the 
prevalence. We are trying to identify children at a younger age 
so we have a component to identify children at age 4. We are 
doing studies to try to understand what is impacting that 
prevalence rate, both from a community perspective, 
understanding how children are identified and diagnosed in the 
community, as well as changes in risk factors and modeling how 
those changes in risk factors over time might have influenced 
the rate.
    Mr. Tierney. So my colleague was talking about diet and 
other family incidences like that. Is there part of this 
monitoring that entails going into an area with a very high 
incidence of autism diagnosis and actually interviewing those 
families to find out what might be distinctive about their 
experiences or their history?
    Ms. Boyle. That is a great question. And actually, we a 
have a second research program, as well as many activities that 
are ongoing at the National Institutes of Health. So we have a 
research component in 6 States in the United States to do just 
that; to interview families, to get more detailed information 
from medical records, to compare families of children who have 
autism versus those who don't and get a better sense of what is 
different.
    Mr. Tierney. In what stage are those studies? How far have 
they progressed?
    Ms. Boyle. So that is called the Study to Explore Early 
Development. We have just completed the first phase, so we have 
2,700 families that have enrolled in that study. We have 
started a second phase, so we are now in the analytic phase of 
that and really hope to be having data come out in the next 
year.
    Mr. Tierney. And other than a geographic way of identifying 
those people, are you doing something also with minority and 
low-income groups to determine why the prevalence is higher 
there, interviewing subsets of those groups?
    Ms. Boyle. So we are incorporating--so our studies try to 
get everyone in the population, and to get everyone in the 
population is always challenging. But that is what epidemiology 
is all about; it is to be representative of the population so 
you don't have a bias there. So yes.
    Mr. Tierney. Thank you.
    Mr. Kelly. The gentleman yields back. I now recognize 
myself for 5 minutes.
    Dr. Guttmacher, you are the only pediatrician here today. 
In one of my other roles in life right now, besides serving in 
Congress, I am also a grandfather for seven children, two 
little girls, one 5-weeks old today and one will be 4-weeks old 
on Sunday. So are you saying that somehow there is a window of 
the first year that parents should be looking at different 
behavioral activities in these children to maybe get an earlier 
idea that the child may be affected?
    Dr. Guttmacher. Absolutely. We do think the first year and 
potentially before that is crucial. It is interesting, for 
instance, that the NIH and others supported a study that was 
done in San Diego, which involved local pediatricians doing a 
survey of their patients, a quick office-based 5-minute kind of 
questionnaire to try to diagnose children with autism about 1 
year of age to see whether this could be done. Not only did 
that study show that it could be effective, it was so 
convincing to the pediatricians that when the study was over 
and therefore funding was over, all of the pediatricians in the 
study elected to continue to do that in their practices because 
they were so convinced that this was important for their 
patients.
    So I think, absolutely, more and more, we want to make a 
diagnosis early because then we can get interventions and 
services to kids and their families in a way that we can make a 
difference, and the earlier we start them, the better the 
impact.
    Mr. Kelly. Dr. Boyle.
    Ms. Boyle. This is key, since we don't know how to prevent 
autism and we do know there are great benefits from early 
identification, we want to identify children as early as 
possible. And CDC has a campaign. It is called Learn the Signs, 
Act Early. And it is really targeting parents and health care 
providers. And it has tools to really help parents as early as 
3 months, 1 month, to understand what the appropriate 
developmental milestones are so your daughter, your daughter-
in-law really can take advantage of those materials.
    Mr. Kelly. Well, my wife and I spend a lot of time with 
them so it would really be important, also.
    Ms. Boyle. Yes.
    Mr. Kelly. I am always holding them and doing something 
with them. And the older ones I am reading to, I should be 
looking for things that I would never have been aware of 
before. Now, I do represent an area that has impoverished rural 
areas. And I am sure a lot of the members feel the same way 
because we don't all represent just one group of people but a 
lot of people. So how are the people in the impoverished areas, 
how do they get accesses? How do we get to them? How do we give 
them the opportunity to find out what they need to know also? 
Is there a method? I keep hearing people, well, they can go 
online. Well, you know, the area that I represent, there is not 
a lot of people that can go online to do this.
    Ms. Boyle. One thing I think neither Dr. Guttmacher nor I 
brought up today is we represent two agencies within the 
context of HHS. And there are others that are represented in 
the Interagency Autism Coordinating Committee whose voices you 
need to hear about, too. So the Health Services Resources 
Administration focuses on training physicians in rural areas to 
really try to target. And then our colleagues in the 
Administration on Developmental Disabilities also do work here. 
And the Department of Education. So there is a lot of work 
here, and you are just hearing really from the two of us. And 
the IACC is really trying--I know it has its challenges--but it 
is really trying to bring together all of those voices in the 
Federal Government in a coordinated way so that we can really 
help everyone really be the group that reaches out to all.
    Mr. Kelly. Doctor, do you have any follow up to that?
    Dr. Guttmacher. I would just say that there are various 
regional approaches. Before I came to the NIH a number of years 
ago, I was the only medical geneticist in the State of Vermont, 
rural area, and saw numerous families and kids with autism. And 
that was part of a regional network that tried to approach the 
questions. The particular challenges of providing both good 
diagnosis and good care to kids in rural areas, it is a 
difficult challenge, as it is in any area that has barriers to 
access, be it rural or urban. There are various kinds of 
government programs that try to do that.
    Mr. Kelly. And I thank you. Dr. Boyle, anything in the 
horizon at all, anything you see coming that could be a cure?
    Ms. Boyle. Again, we have been focusing on understanding 
the preventible causes versus the cure part.
    Mr. Kelly. Well, I want to take this opportunity. Mr. 
Burton and I share an awful lot of passion for a lot of 
different things, but we are both grandparents. I have often 
said that if we could ever exchange and take the place of 
whatever it is of our children or our grandchildren, we would 
gladly do so. So I thank you. And he has departed again, but 
what a great effort. And I think Mr. Meehan hit the nail on the 
head. We will continue to pursue this as long as we can. You 
deserve an answer, and we will keep working towards that means. 
Okay. Right now--Mr. Lynch is not here. Mr. Quigley.
    Mr. Davis, you are recognized, sir, for 5 minutes.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Although estimates vary, research on the prevalence of 
autism spectrum disorders suggests that black and white 
children are impacted at comparable relates with lower 
incidences observed among Latino children. Is there consensus 
on this data?
    Ms. Boyle. You are correct. So our most recent data shows 
that the prevalence among African American children and white 
children is fairly comparable, and the Hispanic--Latinos is 
lower.
    Mr. Davis. Is it possible that lower rates among Latino 
children reflect a lack of awareness within the community, and 
that might be the reason?
    Ms. Boyle. That could be the case. In the program I was 
talking about earlier, which was Learn the Signs, Act Early, we 
are actually trying to target Latino Hispanic populations 
working with our State colleagues. We have all of our materials 
translated into Spanish specifically to try to do that. So we 
are, within the context of the work we are doing, really trying 
to impact that.
    Mr. Davis. Dr. Guttmacher, are you in agreement?
    Dr. Guttmacher. I am in agreement and would bow to Dr. 
Boyle and the CDC for their expertise in this.
    Mr. Davis. It has been suggested that children can be 
diagnosed as early as 14-months old, giving those children and 
their families the benefit of early intervention and treatment. 
However, children of color are routinely diagnosed at a later 
age than their white counterparts. What barriers exist to early 
diagnosis of all children, and are there any socioeconomic 
barriers that prevent parents or physicians from recognizing 
the early signs of autism among children of color?
    Dr. Guttmacher. I think there are issues of access to 
quality care. Having access to longitudinal care, for instance, 
the pediatrician or family physician who sees the child. The 
same provider who has seen the same child over time can more 
easily pick up lack of appropriate developmental progress, et 
cetera, than a physician who is or other health care provider 
who has seen the child only for episodic care. So I think some 
of the questions of access, et cetera, no question. For a 
diagnosis that is principally made in the medical context, 
there are issues of access here.
    Mr. Davis. So if a family did not have say primary care 
physicians for both themselves and their children, then it is 
possible that there might be a later diagnosis than if they had 
this ongoing care all along?
    Dr. Guttmacher. I think it is possible. It creates--you 
know, this is--there are, obviously, many challenges to making 
this diagnosis earlier would have happened long ago. And this 
adds I think to the challenges for both the family and for the 
health care providers in doing that.
    Mr. Davis. Let me ask this question. Once diagnosed 
individuals with autism spectrum disorders have average medical 
expenditures between four and six times greater than the rest 
of the population. The Harvard School of Public Health has 
estimated that it can cost $3.2 million to care for an 
individual with autism over the course of a lifetime. Although 
insurance covers some of these costs, intensive behavior 
therapies often paid out of pocket can cost as much as $60,000 
per year. For families of average or limited means, that means 
that limited access will also occur to treatment. What level of 
access do low-income children have to behavior or therapeutic 
interventions before they reach school age?
    Dr. Guttmacher. That varies by locale certainly to some 
degree in terms of what provisions are based in the community 
and their level of availability. No question that for any 
family, even a family of great means, the challenges of 
appropriately caring for a child with autism are financial 
challenges along with the other challenges they represent. For 
those of lesser means, clearly, the financial impact can be 
even relatively greater.
    Mr. Davis. Are we making any real progress with that issue?
    Dr. Guttmacher. I think we are making progress. Again, it 
is frustratingly slow. But we are making progress in terms of 
coming up with more interventions that make a difference. And 
ideally one wants to have an array of options for interventions 
because different interventions will be more successful for one 
individual from one family than another. But also that access 
to them will vary, so that it is one of the reasons for not 
saying, gee, we are happy we have interventions, but say, 
instead, well, we made progress in interventions, but we 
clearly need to develop more.
    Mr. Davis. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Kelly. I thank the gentleman.
    The gentleman from Florida, Mr. Posey.
    Mr. Posey. Thank you very much, Mr. Chairman.
    Dr. Boyle, my predecessor, Congressman Weldon was a well 
respected competent medical doctor and a great deal of esoteric 
expertise on this subject that I will probably never have. But 
I glean from him some certainty that he felt thimerosal in 
vaccines definitely was a contributing factor to autism. And I 
read not very long ago an article that it said, until the 
wonderful people like us introduced vaccinations to Africa, the 
African children basically were autism-free. They never heard 
of autism, never had a case. Are you familiar with that? Did 
you ever hear that before?
    I wonder if the CDC has conducted or facilitated a study 
comparing vaccinated children with unvaccinated children yet? 
Have you done that?
    Ms. Boyle. We have actually done a number of studies 
looking at the relationship between thimerosal vaccines and 
autism and other developmental disabilities. There have been--
since actually over the last decade, there have been numerous 
studies looking at the relationship between vaccines and 
aspects.
    Mr. Posey. That the CDC conducted?
    Ms. Boyle. Some of them were conducted by the CDC; others 
were conducted by----
    Mr. Posey. How many would you say, would you estimate?
    Ms. Boyle. I would actually have to check with the specific 
numbers, but I know there were two. One large study looking at 
various neurodevelopmental disorders and the second one that 
focused specifically on autism. And those are fairly recent 
studies.
    Mr. Posey. Would you see that my office gets a copy of 
those please?
    Ms. Boyle. Of course.
    Mr. Posey. Do you believe an additional study will provide 
useful data in assessing the safety of childhood vaccines?
    Ms. Boyle. The IOM has evaluated this issue back in 2004 
and again most recently in 2011. And you know, their 
conclusion, again, it is not just looking at the work that was 
done at CDC but with a total body of evidence, was suggesting 
that vaccines and their components did not increase the risk 
for autism.
    Mr. Posey. My time is very limited here. So, clearly, 
definitely, unequivocally you have studied vaccinated versus 
unvaccinated?
    Ms. Boyle. We have not studied vaccinated versus 
unvaccinated.
    Mr. Posey. Okay. Never mind, so just stop there. That was 
the meaning of my question. You wasted 2 minutes of my time.
    What steps has the CDC undertaken to ensure the integrity 
of the research that was performed by Dr. Thorson, who, as you 
know, has been indicted for misconduct and misallocation of 
resources?
    Ms. Boyle. So Dr. Thorson, who was a co-investigator on a 
couple of studies that came out on autism, was really just one 
investigator. And that body of evidence related to vaccines and 
autism.
    Mr. Posey. Have you gone back to validate the variety of 
studies he participated in? I mean, you know this guy is a 
humongous scumbag, one of the most wanted men on earth, and you 
relied upon him for data to determine whether thimerosal had a 
negative effect.
    Ms. Boyle. So two studies don't conclude a body of work. 
The body of work that is relating vaccines to autism is a large 
collection of studies.
    Mr. Posey. You told me you only had two studies related to 
vaccines, vaccinated and unvaccinated, so you must figure two 
studies must have some weight. I am running out of time quickly 
here. You mentioned that you only have thimerosal in multi-
vial. Why is that?
    Ms. Boyle. I was actually going to get that information for 
the committee.
    Mr. Posey. Okay. Because I would think if they only have it 
in multi-vial, if they eliminated having it in all the other 
vials, there was a reason.
    Ms. Boyle. There is definitely a reason, so I was going to 
clarify that. There are single-dose vials and multi-dose vials.
    Mr. Posey. And they took it all out of everything but the 
multi-dose vials?
    Ms. Boyle. That is correct.
    Mr. Posey. How many multi-dose vials are there?
    Ms. Boyle. I can provide you that information.
    Mr. Posey. I have seen a chart that ranks the longevity of 
the 30 nations with the best mortality rates in the world, 
starting with Iceland, Sweden, Singapore and on down. We didn't 
even make the top 30. We are the 34th. And ironically, we 
require more vaccinations than any other country that is 
healthier and has a less mortality rate than us. Do you see any 
correlation whatsoever, either one of you, to the 34th worst 
mortality rate and the most vaccinations to the ones with the 
least required vaccinations and the lowest mortality rate? They 
also have children that, you know, passed age 20 in those 
countries, too.
    Dr. Guttmacher. There are many factors, obviously, involved 
in longevity for any country. The one thing we do know about 
vaccinations is that they are among the major public health 
reasons why generations today live much longer than previous 
generations. They are perhaps the most successful public health 
movement in the world.
    Mr. Posey. Nobody is talking about we are against 
vaccinations. We are talking about thimerosal in vaccinations 
and multiple, you know, bomb blast of vaccines in a short 
period of time on very--thank you, Mr. Chairman. My time is up.
    Mr. Kelly. I am sorry, the gentleman's time is expired.
    Did you want to answer.
    Dr. Guttmacher. No, thank you.
    Mr. Kelly. Very good.
    The next person, the gentleman from Kentucky, Mr. Yarmuth.
    Mr. Yarmuth. Thank you very much, Mr. Chairman.
    Thanks to the panel for your testimony. Those who know me 
and now those who don't, I wear these bracelets every day. 
These are bracelets that were the brain child of a young woman 
in my district, who is now 16. She has a younger brother who is 
autistic. She started at 11 raising money for research in 
autism by selling these bracelets for $3 apiece. She has now 
raised over $600,000. Her name is Michala Riggle. She has 
already financed a $250,000 study in one aspect of autism.
    And I raise that not just because I like to brag on her 
because she is an incredible person, but also to illustrate the 
kind of civilian activity that is going on in this field. And 
it is represented here clearly today. We are here as 
Representatives of the government trying to find out whether 
there is anything the government should be doing that we are 
not doing. Obviously, there have been a lot of concerns 
expressed here about frustration and the activities of 
government.
    A lot of what we can do is fund things. We do know how to 
spend money. And we do have this across-the-board cut coming 
up, so-called fiscal cliff, if we don't act. We are very much 
dealing with spending priorities. Last year, we, for instance, 
passed a defense appropriation bill that allocated $2 billion 
more than the Defense Department actually requested. We still 
gave oil companies $4 billion a year in subsidies that they 
don't say they need. So my question is, if you had another $2 
billion or $4 billion, what could you do with it, and how would 
you spend it?
    Dr. Guttmacher. One thing I would say, before I would spend 
the dollars, is I would not want to displace the private 
efforts, the efforts that you mentioned, because I think part 
of the reason why autism research advances is the combination 
of Federal funding, but also having private organizations, 
advocacy organizations, who have research efforts as well. And 
often, these research efforts are--there are many things I have 
mentioned already in my testimony that is supported both by 
Federal dollars and by private dollars. And also, of course, 
the important input of the families, individuals with autism, 
who themselves inform the research and help shape the research 
agenda. So no matter what the money, we should keep that 
partnership.
    I think in terms of money, clearly, I think, as Dr. Boyle 
also talked about, that we can see the particular scientific 
opportunities right now in terms of better understanding 
environmental factors. Many people I know have been concerned 
that there has been too much focus on genetic factors on 
autism. I would argue that, in fact, understanding those are 
very important for understanding the environmental factors, 
because we know it is a combination of both. So to figure out 
the combination, it is great that we better, still not fully, 
but better understand the genetic ones, so now we can focus 
more on what the environmental factors are, because after all 
those are the ones we can influence and control in terms of 
investments and, again, investments looking very early in life 
to better figure out what the etiology is. But then, also, 
investments in terms of intervention, so that we have more 
effective interventions and more options in terms of 
interventions. And again, I think more research and more work 
in trying to figure out how to best have an impact on the lives 
of those living with autism, both in childhood but very 
particularly in adulthood as well, so that I think there are a 
number of areas where we can wisely invest money.
    Mr. Yarmuth. Dr. Boyle.
    Ms. Boyle. Thank you very much for the question.
    Mr. Yarmuth. I wish I could offer you the money.
    Ms. Boyle. Yeah, but anyway, we do get requests all the 
time from the States, so we fund States, both to do 
surveillance and to do research. And particularly in the area 
of surveillance, the State has good knowledge about what is 
going on within their context, so they can plan for services. 
They can address some of the many issues that came up today 
about disparities and diagnosis among racial and ethnic groups. 
That would be one of the places we would really like to be able 
to fund more States.
    And similarly, to get answers faster, we have worked very 
hard over the last 5 years. And it is not really we. It is our 
academic and State partners who have worked very hard over the 
last 5 years to develop our research base. And we are just at 
the cusp of actually being able to explore that. And more 
dollars would actually allow us to do work faster and to really 
be able to put as much energy into getting good answers for all 
of the questions that we heard today.
    Mr. Yarmuth. Thank you very much for your testimony.
    Mr. Kelly. Thank you.
    Mr. Smith from New Jersey.
    Mr. Smith. Thank you, Mr. Chairman.
    And I appreciate the committee allowing me and others to 
sit in on this. And I want to thank Dan Burton for his 
extraordinary work. He is truly a champion. I sit next to him 
in Foreign Affairs and he is a great Member of Congress and a 
great leader on combatting autism.
    Dr. Guttmacher, in your testimony, you state that since 
passage of the Combatting Autism Act, there has been a ground 
swell of activity suggesting, and I think unwittingly 
suggesting, that this has been about a half-dozen a year 
effort.
    As you may know, I introduced legislation as far back as 
1997 that became law in 2000, it is Title 1 in the Children's 
Health Act, that establish the Centers of Excellence, the 
Interagency Autism Coordinating Committee, and really began a 
robust effort that continues to this day. And of course, the 
reauthorizations have been very important.
    My point is we have been at this in a comprehensive way for 
more than a dozen years, and there is a sense of impatience 
that we all have. ``Frustratingly slow'' I think was the word 
that was just used. But I want to just make a point. Resources 
often follow a demonstrable need. I know that we were able to 
marshal huge amounts of money to combat AIDS, the pandemic of 
AIDS. And Henry Hyde led the effort. George Bush, it was his 
idea. And we spent billions in combatting AIDS, particularly in 
Sub-Saharan Africa, because the demonstrable need was married 
up with the resources to try to make a difference.
    I think it hurts the effort, but we have to be accurate, 
when the 1 in 88 number was first released, horrible number, 
terrible number. The Associated Press Mike Stobbe writes on 
March 29th lead, ``Autism cases are on the rise again, largely 
with a wider screening and better diagnosis, Federal health 
officials said Thursday.''
    Dr. Guttmacher, you were asked in a New York Times article 
about that question of epidemic, and you said, yes, it seems to 
be more common, but the jury is still out. The bottom line is 
you asked two questions rather than perhaps answer it. And 
again, you have got to go where the science is, and I deeply 
respect that. But it is now a couple of years later, and I 
would appreciate it if the jury is still out whether or not it 
is just better surveillance, especially in light of what Autism 
Speaks has discovered in South Korea. The 1 in 38 study that 
they funded makes it very clear that when you go further into a 
study, into the weeds in terms of asking the right questions, 
more rather than less seems to be the case. And I am wondering 
if you could comment on that South Korean study.
    Secondly--so jury out study, if you could speak to that.
    Africa, I chair the Africa, Global Health, Global Human 
Rights Committee. I have been working on the Foreign Affairs 
Committee for 30 of my 32 years in the U.S. House of 
Representatives. We never saw a prevalence spike like we have 
seen on autism in Africa as we have seen in the last 15 or so 
years. I had the first hearing ever on global autism. What we 
got back from those who testified was that there, and the WHO 
backs this up, there are probably tens of millions of cases of 
autism in Africa, Sub-Saharan Africa, in particular, and nobody 
knows why. I was in Nigeria giving a speech on combatting human 
trafficking, and a man came up and told me, he says you can't 
believe how many children in Nigeria are living with autism. 
And of course, in a developing country, it is very, very hard 
to overcome. It is hard in this country, even harder there. So 
if you could speak to those issues. Dr. Walter Zahorodny, who 
is our principal investigator for New Jersey--he is here today 
and is a very good friend, a very, very competent man. My 
question regarding New Jersey, we have the second highest rate. 
Are the other States just as high, but they haven't done or the 
methodology has not been as keen and as effective, again, 
suggesting that we have a worse epidemic than some would 
suggest?
    Your thoughts if you would on whether or not gut flora is a 
contributor. We know immunity is found in the intestines. There 
has been a, I think, a nexus between the two. There is very 
suggestive research on that, that a lack of the gut flora, 
particularly in women who are pregnant, may contribute, we 
don't know, to this problem.
    And finally, and I am almost out of time, but the idea of 
like with AIDS research, having an Office of AIDS Research that 
can really number out what their recommendations, put price 
tags to it, shouldn't we have that also in our efforts to 
combat autism?
    Dr. Guttmacher. Congressman, let me try to respond to all 
of those questions. Please let me know if I haven't responded 
to all of them.
    First of all, I assume you did not want to leave the 
impression that it has only been in the last couple of years 
that the IACC has had a role. I know that your long-term 
leadership of the autism coalition made sure that that was put 
into effect a number of years ago and I think has long had an 
impact. I was only trying to emphasize I think there has been 
as it has both grown in terms of membership and also I think 
gotten more experience has become more effective with time is 
what I was trying to say.
    I think in terms of the South Korean study and the 1 in 38 
there are obviously some methodologic issues with that, but 
there are methodologic issues with almost everything. I think 
it is a very well done study. Does it show that the rate is 
increasing? Unfortunately, we don't know because there was not 
a precursor study in South Korea. It would be very important 
and interesting to see a few years from now, were that repeated 
in South Korea with the same rigorous methodology, what numbers 
they see. Clearly, we know for sure that some of the increase 
in terms of the rates that CDC cites, and again I would bow to 
Dr. Boyle on this because she has more expertise, clearly we 
know that much of that is due to increased and better 
diagnosis, which is laudable. Whether that explains the whole 
thing, I don't think that we scientifically know for sure. I 
think that there is enough of a reason to be--to some degree, 
obviously, this is a hugely important question. To some degree, 
it is not so important because, regardless of the answer, we 
know, a, that there are environmental factors at play here, and 
we need to identify them; b, we know it is a common public 
health problem, so we need to take it seriously. So regardless 
of whether the rate is increased or not, a hugely important 
question to answer, but in terms of what we do, much of what we 
do would be the same in either case. I think for instance----
    Mr. Kelly. Doctor, the time is expired, so if you could 
just summarize very quickly.
    Mr. Kelly. The time has expired.
    Dr. Guttmacher. I think it's important. When it's those 
kinds of questions--in fact, we obviously know that the rate of 
cesarean sections is much higher than it used to be. What's the 
difference between being born by cesarean section and born 
vaginally? One of the big differences is exposure to gut flora. 
What gut flora? What flora colonize the gut of the infant at 
birth? Could that play a role? We don't know. It's one of those 
many environmental things that we should be looking into.
    Mr. Kelly. Thank you, Doctor.
    Now I recognize the gentlelady from New York. Nice to have 
you with us.
    Mrs. Maloney. Thank you. And thank you for calling this 
hearing.
    Autism is becoming a growing epidemic in the United States, 
and it definitely needs to be addressed. And I want to 
compliment, really, Congressman Burton for his leadership. He's 
not here now. I think--is he here?--for being the chairman of 
this committee and doing such a fine job. But you've really 
focused on this, and I think you've made some progress. And I 
want to thank you for your leadership on this issue and so many 
others, and express my gratitude to you and how much I've 
enjoyed working with you.
    Now, the numbers that he pointed out earlier, that it used 
to be 1 in 10,000 kids got autism, it's now 1 in 88, and I'd 
like to ask Dr. Boyle, why? And I don't want to hear that we 
have better detection. We have better detection, but detection 
would not account for a job from 1 in 10,000 to 1 in 88. That 
is a huge, huge, huge jump.
    What other factors could be part of making that happen 
besides better detection? Take better detection off the table. 
I agree we have better detection, but it doesn't account for 
those numbers.
    Ms. Boyle. So just to put it in context, better detection 
is accounting for some of it.
    Mrs. Maloney. I know some, but what other factors? I don't 
want to hear----
    Ms. Boyle. Our surveillance program counts cases of autism 
and establishes the prevalence. It doesn't tell us all the 
answers to the questions as to why.
    Mrs. Maloney. Okay.
    Ms. Boyle. So we are doing a number of studies to try to 
understand the ``why,'' and one of the things that we've looked 
at, we've tried to look at what's changed in the environment, 
things we know are risk factors for autism, things like preterm 
birth and birth weight.
    Mrs. Maloney. Well, are you looking at vaccinations? Is 
that part of your studies?
    Ms. Boyle. Let me just finish this.
    Mrs. Maloney. I have a question. Are you looking at 
vaccinations? Is that part--pardon me?
    Ms. Boyle. So there is a large literature, as I mentioned.
    Mrs. Maloney. Are you having a study on vaccinations and 
the fact that they're cramming them down and having kids have 
nine at one time? Is that a cause? Do you have any studies on 
vaccinations?
    Ms. Boyle. There have been a number of studies done by CDC 
on vaccinations of----
    Mrs. Maloney. Could you send them to the ranking member and 
the chairman here?
    Ms. Boyle. Yes.
    Mrs. Maloney. Now, I want to tell you a story. We all react 
to our lives. And I remember people talking about hormone 
replacement, it's going to save women's lives, you've got to 
take it. Yet every nurse I talked to said go to the bank, it 
causes cancer. Every relative that got cancer said they got it 
because of the hormone replacement.
    I'm hearing the same kinds of stories on vaccination. I 
must have had 50 different parents write me or come to me and 
say, I had a healthy child, yet then they have 10, 9, 6 
vaccinations at one time, and that child changed overnight and 
was knocking their head on the wall, and it was a changed 
child. In fact, I had a family in my office today where the 
mother broke down crying, saying, My child was wonderful, 
bright, precocious, talking. She took those vaccinations, and 
the child became very incredibly sick and has never recovered. 
So I'm interested in any studies on vaccinations and trying to 
understand that.
    Now, it used to be that you'd go and get a vaccination. My 
child never got more than three at a time. And in the State of 
New York, children are recommended to get six shots every 2 
months throughout the first year of a child.
    And my question is, why does the schedule of these 
vaccines--vaccinations require a child to receive so many shots 
in such a short period of time? You could--you could--you could 
plan those shots over a period of time.
    I'm for vaccinations. They prevent disease. I'm totally for 
it. But why do you have to cram nine, six at one time when the 
verbal evidence seems so strong from so many people that they 
had a healthy child until they got vaccinated?
    And you've got to just listen, you know, to--I remember 
smoking. I was on the city council. I sat through so many 
hearings where they vowed smoking was not bad for your health. 
It's common sense that it was bad for your health. Then finally 
the Surgeon General said it was bad for your health.
    The same thing seems to be here with the vaccinations. 
There's too much verbal evidence coming from parents where they 
break down, I had a normal child, I gave him a vaccination, and 
then they--they became--they came down with autism.
    So it keeps to me we should--I would--I'd start spacing it 
out. Why do we have to have nine vaccinations, six vaccinations 
every 2 months? Why can't we do it over 2 or 3 years and space 
it and wait for the scientific evidence or whatever?
    Mr. Kelly. Gentlelady's time has expired.
    Mrs. Maloney. May she answer that question?
    Mr. Kelly. If you could--if you could summarize.
    Ms. Boyle. Sure. There is a Federal advisory committee that 
determines the vaccination schedule. And the reason-- and, 
again, I'll--we'll clarify this and get you more information, 
but the reason--the reason they cluster the vaccines is really 
to try to make sure that everyone gets it. People don't--and 
again, we're trying to make sure vaccines go to all children. 
And not everybody goes to the doctor routinely, so they use--
they use that opportunity to make sure that happens.
    Mr. Kelly. Thank you.
    The chair now recognizes the gentleman from Florida Mr. 
Buchanan.
    Mr. Buchanan. Thank you, Mr. Chairman. I also want to 
recognize, Congressman, for all your leadership over the years 
on this issue. A lot more work to be done, but I want to 
applaud you for that.
    Let me just focus back on the vaccines. Some of my 
colleagues have brought that up today. Is it true that we have 
over 40 vaccines? And I'm not against vaccines, all of them, 
either. But let me just say, because I know there's a lot of 
evidence that they're good, but don't we get, like, 40-some 
vaccines, our children, today? Is that the number? I'm hearing 
upward of 40?
    Yeah, either of the doctors. Just out of curiosity.
    Dr. Guttmacher. There is exact number, and it varies 
somewhat. I think 40 is a little bit high. But it's a----
    Mr. Buchanan. Why would it--why would it be--just to point 
it out--why is it twice what France is, three times Finland, a 
lot of these other countries? And I know because there's a lot 
of people that move in and out of France, a lot of diversity. I 
just don't understand why our kids are getting so many shots.
    And I think of my father-in-law in a different standard 
just in terms of common sense where he's elderly, but he's 
taking eight pills. They found out that a lot of them have 
effects and impacts on other pills.
    And that's why I don't know that we're spending enough time 
and energy looking at this, where our kids are getting twice 
the shots of everybody else.
    And I just have--you know, my sons, it seems like they're 
older now, in their late twenties, but they might have had 
seven or eight. And I'm just going by people that I represent 
in our area that feel strongly that this has to be looked at in 
a very, very aggressive way that we are overvaccinating our 
children.
    Doctor, either one of you.
    Ms. Boyle. We know vaccines save lives. There is a recent 
analysis that was presented at the pediatric meetings in April, 
and I actually have the numbers from that for you. It was 
estimated that 42,000 lives were saved, 20 million cases of 
disease were prevented, and 13.6 billion in direct medical 
costs were saved. And that's for each birth cohort.
    Again, there are complexities in terms of the schedule, 
there are complexities in terms of the types of vaccines, and 
this is all carefully thought out by an advisory committee that 
oversees this process.
    Mr. Buchanan. Have they looked at the impact--and I'm not a 
chemist or anything, but when you put all these drugs or 
vaccines into children, the impact that these various vaccines 
might be having, combinations? I mean, I--here's what I get 
back to. We've got one in one--you know, in 2005, according to 
autism, it was 1 in 166 children. Today, it's 1 in 88. We 
brought that up a couple times. Boys, it's 1 in 54. They're 
saying 40 years ago--whether it's true or not, this is what 
they are saying, I'd be interested in your thoughts--it's up 
1,000 percent. So when you look at 40 years ago, maybe we got 6 
shots, now we are getting 40 shots, is there possibility of any 
correlation?
    Either of you.
    Ms. Boyle. I mentioned earlier--excuse me, I mentioned 
earlier that there is a body of evidence now, accumulated over 
the last 10 years, looking at the relationship between vaccines 
and autism. And that was evaluated in 2004, again very recently 
in 2011, which didn't support an association between vaccines 
and autism from a population perspective.
    Mr. Buchanan. Doctor, do you have anything to add to that?
    Dr. Guttmacher. I would agree she's--that's correct.
    Mr. Buchanan. Let me ask you the other thing. They're 
saying that the person in their lifetime, the care cost is 2.3 
million. Do you agree with that number, for autism? That's the 
number I got.
    Dr. Guttmacher. I don't have a specific number. I'd be 
happy to provide additional information for the record on----
    Mr. Buchanan. But I think it's 2.3 million. And they say 
that it costs the country--I didn't realize it was to this 
magnitude--$137 billion a year annual costs, costs this country 
for care of autism. Do you agree with that number?
    Either of you.
    Dr. Guttmacher. Again, I would not have the data to agree 
or disagree. I know that it's a high number.
    Mr. Buchanan. I just want to let you know we've got to 
spend more time and resources and fix this problem because 
it's--obviously, it's out of control.
    Thank you. I yield back.
    Mr. Cummings. Mr. Chairman?
    Mr. Buchanan. Yes.
    Mr. Cummings. Thank you very much. You know, I'm just 
sitting here, and I'm listening to all this. There's something 
wrong with this picture. There's something wrong. It's--and, 
you know, the gentleman, I thought, asked some very good 
questions; matter of fact, the whole panel.
    When you've got this combination of shots, and you go from 
1 in 10,000 to 1 in 88, it seems to me somebody would say, wait 
a minute, let's put the brakes on this, and at least let's try 
to figure out whether--if I'm giving a baby nine shots in a day 
whether that--I mean, how much impact that's having. I don't 
know how we--I mean, it just seems logic. I mean, if they gave 
me nine shots, I would--you know, I don't know what that--and 
then I know you said there's a body of evidence with regard to 
vaccines.
    Mr. Chairman, I don't know where we go from here, but I--
we--I mean, it just seems to me somebody ought to say, wait a 
minute, let's put some brakes on this. I'm not trying to say 
don't deal with vaccines. Just look at, you know, whether the 
multiple-shot situation is causing this.
    And I wish you could see the people behind you. There are 
grown men that have been crying behind you, and women crying. 
And it's just--I just--I just hope that we can--I mean, I mean, 
you hear the frustration coming from here. And I'm just sitting 
here saying, wait a minute. Seems like somebody would say, is 
there something, maybe, there is an issue here? And if we're 
going to err, let's err on the side of keeping children safe 
even if we have to, you know, do a pause and give one shot a 
day.
    And thank you very much, and thank the gentleman for 
yielding.
    Chairman Issa. [Presiding.] If I may take a liberty of the 
chair for a moment. It is our intention to include in future 
hearings--and the gentleman from Indiana is here--a narrow but 
specific request--and I put both of you, even though you may 
not be the witnesses--of the question of drug interactions 
where the FDA approves individual drugs and individual 
vaccines, but by definition does not necessarily thoroughly 
study interactions of any sort that can happen with 1, 5, 9, 20 
different ones.
    That's a different hearing, but it is one that we wanted to 
talk about, because one of the questions that we see every day, 
and I appreciate the understanding, is that both prescription 
drugs and nonprescription drugs, when interacted, do things 
that were not tested by the FDA.
    So as part of our ongoing relationship with the FDA 
primarily, that is a series of questions we expect to explore 
not because we want to further burden and slow down the 
approval process, but because ultimately that is one of the 
answers that we are only now getting more evidence that there 
has to be a systematic approach to dealing with all of what we 
put in our bodies.
    And Mr. Gosar, when he was here earlier, you know, talked 
about food, food being something that you can't control. But at 
the same time, drugs have to be looked at in terms of what 
somebody may eat or drink in proximity to. So I'm not asking 
you for any information today, but I did want you to be aware 
that we have done a number of things with FDA, and we do intend 
on going down some path related to that, and I thank the 
gentleman for bringing it up.
    We now go to the distinguished and patient gentleman from 
Utah for 5 minutes, Mr. Matheson.
    Mr. Matheson. Thank you, Mr. Chairman, for holding the 
hearing. And thank you. I'm not a member of this committee, and 
I appreciate your allowing me to sit in and participate today.
    Chairman Issa. You may tell your friends that this is a 
committee that represents all jurisdictions of all parts of the 
Congress. So we would be loathe not to include people from the 
other distinguished committees that we often ask the same 
questions on the same subjects with.
    Mr. Matheson. I certainly appreciate that, Mr. Chairman and 
Ranking Member. And I appreciate the witnesses being here 
today.
    We've heard a lot about the 1 in 88 number. I come from a 
State where it's 1 in 47. And I've heard a couple of other 
Members ask questions about differences in incidence in 
different regions. And I'm one that represents a State that's 
sort of at the one end of the scale, from Utah.
    And I've heard a lot about this from my constituents, and 
I--I've always been an advocate for responsible funding and 
research for NIH to try to figure out what's going on with this 
issue.
    I'd like to ask both of you if you can tell me, based on 
your organizations' research, have you been looking at these 
geographic disparities, where the State of Utah is 1 in 47 
instead, and can you offer me any information that helps me 
understand why my State has a different number from the 
national average?
    Ms. Boyle. I would go back to some of the comments I made 
earlier in that differences in how States identify and serve 
children. Since our program, our tracking program, utilizes 
those--those sources, those record sources, to identify 
children, and that varies from State to State. And that--those 
numbers in many ways are a reflection of that.
    Some of our States don't have access to education records, 
and since we were dealing with 8-year-old children or school-
age children, and they're served through IDEA and special 
education, that makes a difference as well.
    Mr. Matheson. Can you tell me, though--I appreciate there 
may be differences in methodology, but is my State better at 
it? Is that what you are telling me? Or is there something else 
going on in my State? Has there been any conclusion to these 
studies that talk about things done differently in different 
States?
    Ms. Boyle. So we--we are looking at both differences in how 
children are identified as well as differences in risk factors 
across States to try to get a better sense of that.
    Mr. Matheson. Is there a target date when there may be a 
result? You say you're looking at it now. Do we know when there 
may be some answers?
    Ms. Boyle. Well, there are some answers. So from the report 
that we put out in 2008, what we could see is that children who 
were coming into the system were more likely to have a 
community diagnosis. So their community physicians are more 
likely to be aware of autism and coming into the system. And 
that's changed over the 10 years that we've been monitoring.
    Mr. Matheson. I understand there are differences. I'm 
trying to figure out have you validated that that is what's--
that is what's going on, where there's a 1 in 47 rate in Utah. 
I'm just trying to figure out why the number is different in my 
State----
    Ms. Boyle. One other example is we're actually doing--we're 
not doing, Autism Speaks is funding a special study in South 
Carolina. So using one of the ADDM sites, they're looking in a 
much more in-depth way to see, in fact, you know, is that 
number in South Carolina low. So, again, we're--it's a puzzle, 
and we're putting all the pieces of the puzzle together that 
way.
    Mr. Matheson. I'm not a statistician. I just see a big 
difference in numbers. So it would be helpful if we could 
understand why that number's different.
    In my limited time I'd like to ask one other question. Can 
any of you tell me about any new therapy approaches that are 
emerging for effectiveness in treating autism?
    Dr. Guttmacher. In terms of therapy, in terms of behavioral 
interventions and other kinds of things that are being--they're 
emerging, that are being developed, in terms of something like 
a medical therapy, I think we're much farther away from those 
kinds of interventions, though one would hope that eventually 
we would have those to offer as well.
    Mr. Matheson. Thank you, Mr. Chairman. I'll yield back.
    Chairman Issa. I thank the gentleman.
    Would the gentleman yield his remaining time to Mr. Burton?
    Mr. Matheson. Yes.
    Mr. Burton. Thank you, Mr. Chairman.
    I just have one question: Why did the FDA and HHS take 
thimerosal out of all the children's vaccines except just the 
one or two or three? I mean, I'd just like to know why they 
took the thimerosal out if there was no problem and leave it in 
just a couple.
    Dr. Guttmacher. I think neither of us are vaccine experts, 
and we'd be happy to look into that and provide additional 
information for the record.
    Mr. Burton. I would like an answer, because I think most 
people would really like to know. Thank you.
    Chairman Issa. I thank both of you. I thank you for 
agreeing to answer that for the record.
    And by unanimous consent, I allow Mr. Posey to ask one 
additional question of this panel. Then we are going to go to 
the large second panel.
    Mr. Posey. It's to you, Mr. Chairman. In the course of 
answering this, one of the witnesses told me that the fugitive 
doctor had been involved in a couple studies with CDC, and I 
have information here that he was involved in 21 of the 24 
studies. And I would like to submit that to the record, Mr. 
Chairman.
    Chairman Issa. Without objection, so ordered.
    Chairman Issa. Again, I'd like to thank our distinguished 
first panel. Again, we will accept additional information for 
the record.
    I know you've been in front for a long time. I might 
suggest that you take advantage of our conference room in the 
back and leave when you choose to, but if you can stay for a 
while and watch it on the monitor, it may help you in 
additional items for the record.
    So with that, we're not going to--we're going to suspend. 
We're not going to leave the room. And if the clerk would 
please change over for the next panel so we can get started 
immediately.
    Chairman Issa. Ladies and gentlemen, we really did not 
recess. So if our witnesses would now take their assigned 
seats. I suspect the second panel will take a very long time, 
but will be equally interesting.
    And I do want to thank all of you for your patience. This 
is a very long time for many of you to sit here.
    We now recognize our second panel, starting with Mr. Bob 
Wright, who is the cofounder of Autism Speaks.
    Mr. Scott Badesch is the president of the Autism Society.
    Mr. Mark Blaxill is a member of the board of directors of 
SafeMinds.
    And I would ask that Mr. Kelly introduce and make a short 
statement about the witness he helped bring here.
    Mr. Kelly. I thank the chairman.
    One of the great honors I have is representing northwest 
Pennsylvania and Mercyhurst College. Mr. McGarry, Bradley 
McGarry, is with us today. Mercyhurst is one of the leaders, if 
you didn't know this, around the country starting in 1986 
addressing these types of problems, and they have been the 
forerunner. Mr. McGarry has spoken all over the country about 
the initiatives that can be taken and the ability to help those 
with lesser degrees of autism to integrate into society and 
make great contributions.
    So, Mr. McGarry, it's so nice to have you here and 
representing Mercyhurst. You do great things. And in 2008, your 
program, the Asperger Initiative at Mercyhurst, is one that's 
being looked at all over the country and is the perfect model 
that lets us to go forward and address some of these issues. 
So, Mr. McGarry, thank you so much for being here.
    Chairman Issa. I thank you both.
    Mr. Kelly. I yield back, Mr. Chairman.
    Chairman Issa. Thank you.
    And we now recognize Mr. Michael John Carley. He's the 
executive director of the Global and Regional Asperger Syndrome 
Partnership.
    And last, but not least, we recognize Mr. Ari Ne'eman. He 
is the president of the Autistic Self Advocacy Network.
    Again, as you saw in the first panel, pursuant to the rules 
of this committee, I'd ask you all rise now to take your oath, 
and raise your right hands.
    Do you all solemnly swear or affirm the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    I have carefully viewed, and all answered in the 
affirmative.
    Please take your seats.
    You are a large panel, and you have a lot to say. I would 
only mention that there are 20 groups behind you who were not 
fortunate enough to be seated with you. So please, to the 
greatest extent possible, make sure you finish right at 5 
minutes so that we can get to Q and A, much of which will help 
with issues that may be beyond your opening statements.
    With that, we recognize Mr. Wright.

                    STATEMENT OF BOB WRIGHT

    Mr. Wright. Thank you, Chairman Issa.
    Chairman Issa. I'm afraid your microphone is not quite on 
or close enough. Could you also pull it a little closer. 
There's a sort of skill we gain here of getting to the mic and 
really getting to it. It goes with being a Congress Member for 
a long time.
    Mr. Wright. Let's see how we do here.
    Chairman Issa. You have what it takes.
    Mr. Wright. Well, thank you, Chairman Issa, very much for 
having us.
    And, Ranking Member Cummings, thank you so much for being 
here.
    We also--I also want to thank Dan Burton for all the work 
that he's done over many years to bring awareness and attention 
to and discussion of and action on autism. Very, very 
important.
    I'd also like to recognize Mr. Smith, who has done an 
extraordinary job as well all over the country and with the 
coalition and many others, and I'm personally involved with him 
in many. So thank you for everything you have done for all of 
us.
    I want to say I'm here because of my grandson Christian, 
who is now 11 years old. And my daughter Katie is sitting back 
here, and my wife Suzanne. And he was a boy that was 2 years 
old, and we thought he was very precocious. He seemed to be 
brighter than average, he walked early, he had enormous 
vocabulary, and then he lost everything. And I'll tell you 
without any secret that my--my daughter, you know, firmly 
believes that vaccines were the relationship that triggered him 
into this pit.
    So we lost a little boy we knew. It wasn't like he was a 
disabled person who got more disabled. He was a boy, and we 
lost him. And that's what led us to found Autism Speaks.
    We could take care of Christian, but we saw so many others 
out there. And I traveled around the country, and I sat in 
meetings, similar to the meeting you're having here, where I 
would ask questions about autism. I went to universities, I 
went to medical schools, and I got the worst answers 
imaginable. Actually I heard some of the same answers here just 
a few minutes ago on the panel. It must be they're on a Twitter 
thing or something. It was, we don't know, but we're sure; or, 
we're sure, but we don't know, but we really don't know, but 
we're sure. And that was a lot of the issues, why are the 
numbers so high and so forth?
    So we got into this and said--we called around to find 
like-minded people, and that's how Autism Speaks got founded. 
And we've been fortunate. We've raised a considerable amount of 
money. We have 250 full-time employees around the country. We 
have 90 walks. We have 400-some-odd thousand who walk for us 
here. We have activities outside the United States.
    But all of that's based on that little boy. And the fact 
that in all my business career, I was shocked that I was so 
ignorant of all the situation; and then when I got into it and 
tried to learn, I was even more shocked that nobody was helpful 
and that we were just trapped and amazed here of obviously 
escalating issues, all kinds of things.
    So I'm going to try to answer a couple of things, or at 
least bring some help here.
    We talked about the 1 in 88, which is exactly--that is the 
U.S. Number. Now, the CDC is what a--what they call a passive--
it's a passive resource. They go around and they look at 
medical records that are in--that are existing. That's a 
variable. And they also look at school records. That's a 
variable. They do not talk to children. There's no clinical 
evaluation, no talk to parents or anything. And that's--that 
partly accounts for some of the differences when you go around 
the country. Some schools have better records; some school 
don't. Some--whatever. And that's what they do.
    The Korean study that we financed, which is the most--it's 
the--it's the gold-plated model on how to do this. We went 
through the same process in Korea with Koreans, with Japanese, 
with Americans, and we ended up finding out that there was 
about 1 percent of the population, which is just what we had 
here.
    But then a second thing happened. Parents wanted to offer 
comments about what we were doing, because we were only doing 
the school records and all that sort of thing. And the school 
district said fine. It's 100,000 in population area in Seoul. 
And the school--we asked parents that wanted to come in that 
they could come in and offer comments and so forth.
    Well, they came in on all kinds of issues, and we separated 
them out to 2 years. And out of that we actually had 1 more 
percent of the entire community of that same community 
diagnosed with autism. We brought people in. So the number is 
2.657 percent. I have no reason to believe that that number 
won't be duplicated in the United States with that methodology. 
That's why we are financing this effort to convince the CDC 
that--they don't actually have disagreement with the number. 
Their position was, we don't have any money. We can't afford 
that. That costs more money. We only do this.
    And that sort of speaks for itself.
    But I'll also tell you that----
    Chairman Issa. If you could do that in summation, please.
    Mr. Wright. I'll also tell you that we have--they spend 
almost no money, almost no money on autism; $20 million, $30 
million, including all--all of the--all of the--the safety 
issues. That's a--that's--we could fix that in an hour for 
about $35 million a year on top of what they do.
    So the name of this committee, the Oversight Government 
Reform, there's a real issue there. I wish they weren't even 
involved with us, but they're the only ones that did 
prevalence. We are on page 7 of their--their 2-page top 
priority list, and autism is right at the bottom of it. I don't 
know why Dr. Boyle, but the nature of, I guess, being in the 
large--large--they all want to say, we have no money. We don't 
have any priority. I can't get anybody to hear. And I don't 
complain enough. So this is about speaking up.
    Chairman Issa. Thank you very much.
    [Prepared statement of Mr. Wright follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Issa. And we now go to Mr. Badesch, with the same 
microphone problem you will all have. It's an acquired skill, 
and I appreciate you all for learning it.

                   STATEMENT OF SCOTT BADESCH

    Mr. Badesch. Thank you, Mr. Chairman, Ranking Member 
Cummings, and the other members of the committees.
    My wife and I are the very proud father of Evan Badesch, 
who's a 25-year-old son who is--with autism who attends 
Marshall University, which, like the other school represented 
on this panel, is thriving and helping so many with autism. But 
he is one of the more fortunate with autism.
    The Autism Society of America is the Nation's largest and 
oldest grassroots organization dedicated to the autism 
spectrum. As has been discussed today, the incidence of autism 
has shown marked increase as the CDC surveillance rates, 
currently at 1 of 88 births. Many children and adults may not 
be properly diagnosed, and this number may actually be higher 
than the actual incidence.
    We applaud the work of the CDC and appreciate the 
partnership we have with CDC, and particularly efforts we are 
working with the CDC on addressing better some of the questions 
asked earlier about how we can increase the growing disparity 
of the--the autism diagnosis rates among people of color and 
other ethnicities and geographic locations.
    We would suggest that currently the services for autism are 
difficult at best to navigate, and often when services are 
provided, they may not be individualized or be the best 
approach for the needs of the individual.
    The Autism Society is about helping people today and 
preparing them for tomorrow. And we believe that government 
services, if funded by government dollars, should have focus on 
advancing an individual's quality of life in measurable and 
meaningful ways. We need to reexamine how government services 
can be provided not on a limited definition of services, but 
rather based on an individual's needs.
    As I noted, today there is a significant disparity in the 
need for available funds for both long term and support--and to 
support people with disabilities. This disparity has resulted 
in very long waiting list for services throughout our country, 
and estimates of that waiting list being anywhere from 80,000 
individuals nationally to as many as 200,000 people who go 
without services each day.
    Meeting the significant need will not only require 
expansion of services, but we believe it requires us as a 
society and government to think differently about the way 
services are delivered.
    An individual today who's diagnosed ineligible for services 
and then put on a waiting list is denied the critical services 
that we all know could help him or her move forward in 
addressing quality-of-life needs.
    We recognize that funds are limited, and we would encourage 
the committee to examine ways that if funds have to be cut, 
that they not be cut at the expense of individuals, but at the 
expense of unnecessary duplication and administrative services.
    We also would encourage the government--this committee in 
its role to look at the public schools. Our public schools are 
required by law to provide every child with an appropriate 
education, and, unfortunately, 50 percent of students with 
disabilities are either dropping out, or not graduating, or not 
receiving appropriate degrees. This is very difficult when we 
look at how to help those children in adult life.
    We also believe that government services must be outcome 
based, and we must encourage that those services aim to help a 
person maximize his or her independence in self-sufficiency. 
And we also have to take a recognition that as a Nation, while 
we are very concerned about an unemployment rate when it goes 
above 5 or 6 percent, the reality is that for the individuals 
with people with disabilities, that rate is as high as 78.5 
percent.
    Government's responses are most effective also when 
resources are available under one umbrella. Any parent or any 
individual who's had to navigate the system will say it's 
impossible to navigate. The committee must--needs to also look 
at how we can more effectively, and we would argue at a much 
lower cost, coordinate the government's response through a one-
stop model or centralization of information.
    We also would encourage this committee to look at the issue 
of Medicaid portability. When a person moves from one State to 
another, he or she loses their Medicaid community support 
services and has to start over again. This is particularly of 
concern to military families when they get relocated from one 
base to another.
    Finally, I want to mention about the Combating Autism Act 
and the Interagency Coordinating Council. With all respect to 
our prior speaker, we would disagree with a lot of what he 
said. This is a group that in concept could do a great job with 
coordination, but in reality it's not. If a body is going to 
be, in fact, a coordinating body, it has to include public--
private and not-for-profit sectors. We have to be an equal 
partner at the table. It also has to include government 
representatives from the Department of Labor, Justice, Housing 
and Defense. And it also has to meet.
    We also support, very strongly encourage the continued 
funding of training components of the Combating Autism Act.
    Finally, I would just like to encourage, as said prior to 
all this, the need for adult services is extensive. When you 
talk about a fiscal cliff, the greatest cliff that occurs in 
our community is that when a person turns 21, and absolutely no 
services are available for that person when they need.
    And, again, we thank the committee, and I'll happy to 
answer any questions when all the other speakers are over.
    Mr. Meehan. [Presiding.] Thank you, Mr. Badesch.
    [Prepared statement of Mr. Badesch follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Meehan. Mr. Wright, you have one quick point?
    Mr. Wright. A piece information just came to my attention. 
The Senate just passed the TRICARE Amendment, restoring all 
military personnel ABA therapy with a retired end service. It's 
taken 5 years to do that, 5 years.
    Mr. Meehan. Mr. Blaxill, you are now recognized for your 
testimony.

                   STATEMENT OF MARK BLAXILL

    Mr. Blaxill. Good afternoon. I'm honored to be here to 
represent SafeMinds, grateful to the chairman and to 
Congressman Burton for his terrific work, and I'm humbled by 
the opportunity to represent the community of autism families.
    I would like to enter into the record--well, we had 
collected testimonials in the last couple days from over 300 
autism families who wanted to attend the hearing but could not, 
and you can read their statements here.
    Mr. Meehan. Without objection, so ordered. We will include 
that in the record.
    **The testimonials have been placed in the official hearing 
folder. Due to the volume they are not able to be printed.**
    Mr. Blaxill. I wrote a book on autism. It argues that 
autism is a new condition.
    In 1935, Leo Kanner wrote this book. It's 537 pages long. 
Not a whisper of autism in any of it. Three years later, he saw 
the first child with autism, a family from Mississippi that 
came all the way up to visit him, and he'd never seen a child 
like Donald Triplett before. In 1943, he wrote his famous paper 
in which he argued, ``Since 1938 there have come to our 
attention a number of children whose condition differs so 
markedly and uniquely from anything reported so far that each 
case merits a detailed consideration of its fascinating 
peculiarities.''
    Before 1930, the rate of autism in the world and in America 
was effectively zero. Today, nearly 70 years after Kanner's 
paper, reported autism rates are 1 in 88. In New Jersey, 1 in 
29 boys born in 2000 were diagnosed as autistic. What's going 
on? Why are so many American children sick?
    I think we have to face reality. We need to be clear: 
Autism is a public health crisis of historic proportions, worse 
than poliomyelitis. It's devastating a generation of children 
and their families. We need to face that reality. Autism is a 
national emergency.
    We skip to slide 5. There's a summary here of historical 
autism surveys in America. For a long time we had low rates in 
America, about 1 in 10,000.
    Keep flipping. There we go.
    Then around 1990, something new and terrible happened to a 
generation of children. Autism rates didn't just rise, they 
multiplied. This escalation covered both full-syndrome autism 
and the broader autism spectrum, including Asperger's.
    Some people claim this isn't real, that we're just doing 
better diagnosing. That's just wrong. If you read the old 
literature, the old surveys, they looked for everybody, and 
they couldn't find people. They didn't miss 99 percent of the 
children with autism. It's not hard to find a child with 
autism. It's obvious when they're autistic.
    The notion that we're just doing better diagnosing--even in 
the CDC studies, they're using the same methodology. So when 
you see those number rising, that's not because the methods are 
changing, it's because there are more cases.
    In the midst of this crisis, the Federal agencies 
responsible for the health of our children have failed in their 
duty. CDC's negligence has led the way. Many of us believe CDC 
has actively covered up evidence surrounding autism's 
environmental causes. NIH, meanwhile, has received the lion's 
share of funding, money they've wasted on status quo research 
and gene studies. It's absurd to focus on genetic research in 
this crisis. There's no such thing as a genetic epidemic.
    I'll skip past a couple of examples of malfeasance. I'll 
just say that in the financial world, the result of pressure to 
manipulate numbers to provide the answers that bosses want has 
a name; it's called securities fraud. In medicine there are 
similar pressures; they are called special-interest politics 
and even peer review. And what CDC has given us is the medical 
equivalent of securities fraud all to avoid the inconvenient 
reality of the autism epidemic.
    In the face of a national emergency, government agencies, 
especially CDC and NIH, have performed poorly and behaved 
badly. We need accountable, new leadership on autism at NIH and 
CDC. We need an advisory committee that believes in combating 
autism, not newly stocked with--one newly stocked with 
appointees who actually oppose that mission. We need a 
Combating Autism Act that truly combats autism. We need to stop 
investing in the autism gene hunt and identify what has changed 
in the environment that could possibly have injured so many 
children. The scope and the magnitude of these changes, it's 
complicated, yes, but it can't be that complicated. There have 
to be a very small list of things that could have changed.
    Ultimately we need to face and answer the question why are 
so many children sick. We'll only do that hard work if agency 
leaders are held accountable to the American people, not 
powerful interests in the medical industry.
    So we're asking you the members of the committee, for your 
help. Please, let's not make this hearing a one-time episode. 
Please stay on the job in the next Congress. Root out the 
failures, the waste, the fraud, the negligence and the abuse in 
these agencies that aren't doing their job. We need CDC and NIH 
to do their jobs, and they're not. There's a crisis. We need 
your help.
    Thanks very much for your time.
    Mr. Meehan. Thank you. Thank you, Mr. Blaxill.
    [Prepared statement of Mr. Blaxill follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Meehan. Mr. McGarry, you are now recognized for your 
testimony.

                  STATEMENT OF BRADLEY MCGARRY

    Mr. McGarry. Thank you, Mr. Chairman, for the opportunity 
to address this committee and to discuss the rise in autism 
spectrum disorders, its impact on postsecondary education, and 
the allocation of government resources for ASD.
    As we've discussed, the CDC now indicates that 1 of every 
88 births in America results in a child diagnosed and living 
with autism spectrum disorders. As these numbers are 
staggering, students diagnosed with ASD are now of age where 
they are applying to higher-education institutions across the 
United States in the same record numbers. It is estimated that 
within the next 2 years, 1 of every 100 college applicants will 
have an ASD diagnosis, and this is just the beginning of the 
wave that has been characterized as epidemic.
    In 1984, the Learning Differences Program at Mercyhurst 
University has educated and assisted nearly 1,000 students with 
disabilities to succeed in college, earn a degree, and go on to 
make a difference in the world.
    In 2008, Mercyhurst introduced the Asperger Initiative at 
Mercyhurst to meet the unique needs of the growing population 
of college students diagnosed with Asperger syndrome and ASD. 
The AIM program focuses on building a foundation of self-
advocacy, social skills, and sound academic progress.
    Thanks to an appropriations grant in 2009, we did receive 
$100,000 from the U.S. Department of Education, and we were 
able to launch the AIM program. Two short years later, in 2011, 
Best Colleges Online ranked our Asperger Initiative at 
Mercyhurst number 3 in the Nation on their list of impressive 
special college programs for students with autism.
    Mercyhurst President Tom Gamble emphasized that Mercyhurst 
believes that capable students, if given the environment and 
opportunity to succeed, will do just that. Dr. Gamble has 
committed Mercyhurst to continuing the development of the 
Asperger program.
    Very few colleges and universities across the United States 
offer a program of collegiate support like AIM for the cohort--
for this cohort of students. Too few are equipped to educate 
college and postsecondary students diagnosed with ASD. We have 
found that AIM students are able to excel academically, but 
most have a great need for internships and job coaching. Few 
have ever held a part-time job or understand the nuances of the 
workplace.
    The Department of Labor and Industry's Office of Vocational 
Rehabilitation has been helpful in providing support for our 
AIM students, but is limited to only supporting students or 
employees, and neither internships nor job coaching are covered 
under current OVR restrictions.
    Jane Thierfeld Brown cautions in her book, Students with 
Asperger Syndrome: A Guide for College Personnel, ``The 1 in 88 
number of incidence cited by the CDC will begin to be realized 
when overeducated and under- or unemployed adults with AS are 
brought into the welfare and social services systems. 
Individuals without jobs will pose a burden on their families, 
on insurance companies, and on Federal and State social 
services. This is not only unnecessary, but also critically 
unfair to a large group of people in our society. To prevent 
this scenario, changes must begin now.''
    Mercyhurst is dedicated to educating and preparing all of 
our graduates for productive careers. We've tried to develop 
partnerships and have with Verizon Foundation, the PNC Bank 
Foundation, Conquer the Canyon, and other private donors. The 
next step for the AIM program is to fund and launch our 
internship program for our seniors and provide job coaches as 
needed to prepare them for the workplace.
    The AIM program has been cited as a model program and has 
implemented a majority of the innovative components of the 
program with limited resources and opportunities beyond the 
commitment of the university. It is our hope that a strong 
consideration is made for allocations of government resources 
to fund programs like the Asperger Initiative at Mercyhurst 
that assists students not only in receiving a college 
education, but also in helping them become productive citizens 
in our society.
    As a provider and a father, I strongly feel we need to act 
now before the task before us becomes insurmountable.
    Thank you again for your time and this opportunity.
    Mr. Meehan. Thank you, Mr. McGarry, for your testimony.
    [Prepared statement of Mr. McGarry follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Meehan. Mr. Carley, you are now recognized for your 
testimony.

                STATEMENT OF MICHAEL JOHN CARLEY

    Mr. Carley. Mr. Chair, I would ask for just a little bit of 
leeway, since having only been asked to speak Monday morning, I 
haven't had the same amount of editing time as many of my 
colleagues. Just a minute or 2 would be most----
    Mr. Meehan. Do your best, and we'll work with you.
    Mr. Carley. Thank you very much.
    As the executive director of both ASTEP and GRASP, and on 
behalf of both my boards, I would like to thank all the members 
of the committee here for having me to speak.
    I bring two concerns, both of which shed light on a 
population of people on all sides of the spectrum and all sides 
of the many controversies that exist in the autism/Asperger 
world who are simply overwhelmed. And I hope to be able to 
stress the negative consequences on us all when so many are 
enduring financial, logistical, and emotional stresses of a 
magnitude that might surprise you.
    My first concern is the more standard apprehension 
concerning the direction and prioritization of government 
funding. Currently the emphasis is on government research, and 
there is good herein, as well as fairness, for there is a 
vastly disproportionate amount of research funding for autism 
when compared with infinitely less prevalent conditions.
    All that said, however, research is based on the future and 
not where our greatest need lies, which is in the present. 
Today the services we collectively offer is paltry in 
comparison with the true need that's out there right now.
    The majority of our families still do not have the 
appropriate services, interventions, or educations available to 
their children, and adults on the spectrum are starved for 
appropriate housing, therapies, and employment opportunities. 
And if fiscal concerns are indeed something which we measure 
things by, then let's think of that adult who if they are able 
in a job employment program to become a taxpaying, productive 
member of society rather than existing on government support 
seems to me like a financial no-brainer. And for those who are 
not able to participate in programs like that, think of the 
productivity that is lost because the parents can't produce 
like they used to. Why we never consider the fiscal costs of 
not providing services is still a mystery to me.
    And I disagree with some of the testimony we have had here 
before. We are not amidst a health crisis. We are amidst a 
services crisis.
    My second concern has to do with how we implement whatever 
direction we take in terms of the tone or the language being 
used. Now, tone or language may seem like PC, self-help, feel-
good spin to a lot of people, and I understand that, but it's 
not for someone on the spectrum who grows up having to hear 
words like ``cure,'' ``disease,'' ``defeat,'' and ``combat,'' 
words that have no medical basis given the genetic component of 
autism. For though we may improve dramatically, we're born with 
this, and we will die with this, and such negative self-imagery 
makes self-esteem so much harder to achieve for an individual 
who is at a psychological disadvantage enough as it is.
    We have to remember that the majority of this population 
now can read what's being written about them and hear what's 
being said about them. And as we all grow, whether on the 
spectrum or not, we need to hear about what we can do, not what 
we can't do.
    Autism is simply more complicated than any of us want it to 
be. Try as we may, we cannot sloganize it, we can't dumb it 
down. And historically our refusal to accept the complexities 
of this vast spectrum has created a competition of suffering 
amongst ourselves that has made the autism world and its 
politics one of the most emotionally unhealthy atmospheres you 
could ask to work in. Is this because we're all so overwhelmed, 
thanks to unmet service needs, to process these different lives 
in a more productive manner? I think the answer is yes.
    Now, I was lucky. When my then 4-year-old son and I were 
diagnosed with Asperger's in late 2000, I was at a point in my 
life where I had a family, I had a career. It was a weird life. 
I was a starving playwright by night and a minor league 
diplomat during the day, working in such places as Bosnia and 
Iraq. But there was proof that there was possibility within my 
son's diagnosis. Most other parents might have resorted to 
praying that their child could have a future. Thanks to my 
diagnosis and a life lived up to that day, I had the advantage 
of evidence-based conviction, not hope, and self-esteem was the 
most formulative factor in all of that.
    Now, granted, I am at one end of the spectrum, and I 
understand that to many parents I will seem like the possible 
and not the probable. But I also would never invalidate that 
the prognosis for me was once not so good, nor that my 
behaviors haven't dramatically changed for the better. And what 
is considered probable has changed immensely over the last 10 
years, and that is a credit to everybody working in the autism 
world. Self-esteem again was the most predominant quality that 
got me to that point, because, unlike other people on the 
spectrum who are brilliant, I don't have that kind of a brain.
    And lastly, it's an ethical mistake whenever we sacrifice 
the possible in the name of the probable. As national 
nonprofits like government thus far----
    Mr. Meehan. One question. Is there one more point you 
wanted to make, or is this your conclusion?
    Mr. Carley. This is the concluding paragraph.
    Mr. Meehan. Take your time. I didn't mean to rush you that 
much, but I thought you had another whole point you were 
developing.
    Mr. Carley. I'm good, sir, no.
    As national nonprofits like government thus far, we, too, 
have often failed to lead. Our centrists have frequently been 
too hesitant, but more damaging are the militants on opposite 
ends of the controversies who have pandered to their members' 
anger, anxiety or depression with alarmist rhetoric, 
misinformation, fight talk, and all this encouraging the search 
for a bad guy, somebody to blame, thereby pouring gasoline on 
the fires of the people that are looking to us for leadership 
instead of helping them with messages of acceptance, respect, 
openness to a path that may be different from what was 
expected, and helping them get the services they need.
    I ask this administration as well as our community to lead 
and to help these constituents in such a way that will not just 
be acceptable to the polls or pander to any ill-conceived 
notion that an injustice was done or that there's something in 
the water. I cannot stress enough my disappointment that the 
conversation on vaccines is still evident. Despite the 
immense----
    Mr. Meehan. Mr. Carley, at this point, I appreciate that, 
but in respect to each of the panelists, I have given you a 
significant period to go on, but please appreciate that we will 
take your testimony in its written form and ensure that it is 
part of the written record. Thank you so much.
    [Prepared statement of Mr. Carley follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Meehan. Mr. Ne'eman, at this point in time, I recognize 
you for your testimony.

                    STATEMENT OF ARI NE'EMAN

    Mr. Ne'eman. Thank you, Mr. Chairman, Ranking Member 
Cummings, and esteemed members of the committee.
    My name is Ari Ne'eman. I represent the Autistic Self 
Advocacy Network, an organization run by and for autistic 
people. I also previously served on the Interagency Autism 
Coordinating Committee. And let me just say, as an autistic 
person and as a taxpayer, I want to thank you for giving self-
advocates a seat at the table today.
    I would like to begin with a story. Earlier this year, I 
was visiting a service provider in New York, and I happened to 
meet a young man my age. We will call him Joe, and Joe is 
autistic, like me, but unlike me, Joe doesn't speak. He had 
come in with his father to try and find a job, and I had the 
chance to sit down with him and his dad and ask them questions. 
And Joe, despite not speaking, found ways to be very actively 
involved in that conversation. He pointed at what he was 
interested in, shook his head at what he wasn't. He had plenty 
to say, and few people had ever bothered to pay attention. No 
one had ever given Joe the simple support of a communication 
device. That technology exists. It has for years. We just don't 
invest in it. And I think about Joe a lot at times like this 
because the current autism research agenda largely ignores his 
needs.
    I am a big believer in the old maxim, in God we trust, 
everyone else please bring data. So if you don't mind, I would 
like to point to some of the data in the autism research agenda 
and see what it shows us. In 2010, NIH spent about $217 million 
on autism research. Of that, only 2 and a half percent went to 
research on improving the quality of services; only 1 and a 
half percent went towards research on autistic adults and our 
needs. Now, when you compare that to the percentage of the 
research agenda focused on causation and biology, the attention 
paid to the needs of us here today is laughably small.
    I am not here to speak for all autistic people. That is 
impossible. But I am here to speak for the right of every 
autistic person to get the support they need to speak for 
themselves and not to be written off as victims or burdens.
    Now some have tried to justify the lack of attention paid 
to services and adult issues through talk of an epidemic. I 
don't happen to subscribe to that theory, but if we wanted to 
study it and evaluate it scientifically, a very simple step we 
could take would be to research the prevalence of autism in the 
adult population.
    The United Kingdom, in fact, conducted that study and found 
a comparable rate of autism in adults as in children. We should 
be doing that here, and regardless of the result, we would gain 
valuable information on supports for autistic adults.
    I want to highlight three additional points, noted at more 
length in my written testimony. First, I think it is very 
important to stress that there are really severe racial, 
income, and gender disparities in the autism world. As was 
mentioned earlier, African American children are diagnosed 
significantly later than Caucasian children. Department of 
Education data has also showed us that low-income and minority 
youth on the spectrum have the lowest rates of employment and 
higher education access in the years after they leave school.
    We also know that gender plays a big role. Many believe 
that the 4 to 1 ratio of boys to girls being diagnosed is at 
least partially a self-fulfilling prophecy with girls less 
likely to be identified because they don't fit the stereotype.
    Second, I think it is important that we recognize that when 
we talk about autism services, we are mostly talking about 
services with the word disability, not autism on them. So we 
have to talk about programs like IDEA and Medicaid, and a few 
words on Medicaid in particular. The vast majority of 
disability services are financed through Medicaid. If that 
program were block granted or otherwise significantly cut, 
those services would be devastated. I cannot emphasize this 
enough. Ending a robust Federal commitment to Medicaid means 
ending any meaningful chance we have to support autistic 
people.
    Third and finally, I want to stress the importance of 
building a pathway to employment for my community. Our current 
disability service provision system actually makes it very hard 
for people who want to work to enter the workforce. If you are 
leaving school, you have to choose between going without 
support or committing to exit the workforce in order to qualify 
for SSI and Medicaid. Quite frankly, that is just bad public 
policy. If you want autistic people to be taxpaying citizens, 
and we want to be, we need a service system that emphasizes 
employment.
    The Affordable Care Act has made some progress toward those 
ends. Another good example of what more we could do can be 
found in the TEAM legislation, a bipartisan collection of bills 
on transition for youth with disabilities introduced by 
Representatives Harper and McMorris Rodgers.
    In closing, I want to point out that historically most 
disability movements have a certain life cycle, and autism is 
no exception. In the beginning, most public attention focuses 
on questions of cure and causation, but with time, both 
advocates and policymakers realize that the real issues relate 
to helping support and defend the civil rights of people today. 
Now, in autism, that process is still going on, but I am 
confident, I am confident because I believe this is a civil 
rights issue, and I believe that the United States of America 
can guarantee the civil rights of all of its citizens.
    Thank you very much. I look forward to your questions.
    [Prepared statement of Mr. Ne'eman follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Meehan. Thank you, Mr. Ne'eman.
    And thanks--thank you to each of the panelists.
    Now, in regular order, the chair will recognize Mr. Burton 
from Indiana.
    Mr. Burton.
    Mr. Burton. First of all, I want to thank you all very much 
for being so patient. I mean, we grilled those people for, 
what, about 3 hours, and you had to sit there, so I want to 
tell you I am amazed that your posteriors could survive that 
long. That is the first thing.
    The second thing I would like to say is that Abraham 
Lincoln said, Let the people know the facts and the country 
will be saved, and one of the problems that we have is that I 
don't think there is enough information getting out to the 
people who are not affected. I was like that; I didn't know 
much about autism until my grandson became autistic. And then 
all of a sudden it became a cause celebre for me, and I was 
fortunate I was chairman at the time, so I had the resources at 
my disposal to do something about it.
    So I asked my staff, I want you to get a copy of this whole 
hearing, every one of you. You can get it on the Internet. What 
is our Internet web site? Governmentoversight.house.gov. 
Governmentoversight.house.gov. And I would urge all of you to 
disseminate this whole hearing and try to get as many people as 
possible to look at that because more people, the more people 
that know what is going on and understands it, the more likely 
we are to get some kind of positive result out of the FDA and 
HHS.
    And they get a lot of money. I don't know why in the world 
they can't allocate more money for this whole issue, and that 
is why it is important that you keep beating the drum.
    I am retiring. This is my last year in office here. I have 
been here 30 years, but my last year, but I want you to know, 
any of you that have a need, any of your organizations, you get 
a hold of me, and I will do anything I can to help you because 
this is something I feel very strongly about.
    Now the other thing I want to talk about is we have what is 
called the Vaccine Injury Compensation Fund. It has $2.4 
billion in it, and it is not being disseminated to people who 
have damaged children. And it is because we have a system, 
which was supposed to be user friendly, that is not user 
friendly. We have special masters that are saying, you know, we 
can't prove or can't make sure that this person deserves any 
money out of that fund, and so I think it is important that we 
beat the drum on that because there is $2.4 thousand million in 
there, and there is a lot of money for people who really could 
use it, and that was put in there by the pharmaceutical 
companies to help people in a user-friendly way to solve these 
problems.
    I think that is about all I have to say, except I am very 
sympathetic to all of you. We have had I don't know how many 
hearings on this subject over the past decade, but the problems 
just keep getting worse and worse and worse, and we really need 
you not only to be the foot soldiers but the people that are 
going to lead the charge to make this a cause celebre for 
everybody, even those who aren't affected by autism. It will 
affect everybody--autism, that knows anything about autism 
because these people are going to live, as we said before, you 
have all mentioned this to a degree, these people are going to 
live for some time, and they are going to be a burden not only 
on the families but on society.
    We had people come before my committee whose children they 
were afraid of, they would lock the doors when the kids got out 
of control because they were so big, people that mortgaged 
their homes and lost everything they had taking care of their 
kids. That is not widely known, and that is why it is important 
that you guys keep beating the drum and get the message out 
there, not just for your family but for everybody in our 
society.
    Thank you, Mr. Chairman. I yield back.
    Mr. Meehan. Thank you, Mr. Burton, and thank you for your 
passionate advocacy on this issue for your tenure, and we 
genuinely appreciate your leadership and look forward to hoping 
that we can continue to carry the mantle.
    At this moment, let me recognize the distinguished ranking 
member, Mr. Cummings.
    Mr. Cummings. Thank you.
    I want to thank all of you for shedding so much light on 
the subject. You know, I think my frustration comes with regard 
to trying to make sure that we take your pain, as I was telling 
you, Mr. Wright, that has now been turned into a passion, to 
make sure you carry out your purpose to help the folks that you 
want to help, and I am sitting here trying to figure out, how 
do we effectively and efficiently use your energy and your 
passion so we get something done?
    You know, I was listening to you, Mr. Blaxill, and 
basically, if I understood you correctly, it seems as if you 
feel that there has been a lot of game playing, and I don't 
know if you used the word ``fraud,'' but you came pretty close, 
and, you know, as I listen to you all, I think about how these 
numbers are increasing. We are marching into a very, very 
serious situation.
    And I know, Mr. Ne'eman, you said don't call it an epidemic 
or whatever you said, but this is serious stuff. You have got--
and you all know, but I am just listening to you. I am sure you 
have got parents who have to give a lot, and so their 
productivity is affected. We have got people who are struggling 
with this and not getting the services that I guess could make 
them even more productive, am I right? Is that what you are 
saying, Mr. Carley?
    Mr. Ne'eman. It is, it is. And I do want to reinforce. This 
is, in fact, very serious my concern with the rhetoric of 
epidemic is that it stands in contravention to a growing amount 
of science exploring whether or not we are seeing a rise in 
incidence or a rise in diagnosis, but, B, I am concerned about 
the population that Congresswoman Norton mentioned earlier, 
many of whom are my members and Mr. Carley's members, who have 
often gone for decades without diagnosis or who have been 
misdiagnosed. The perception that autism is some recent new 
thing has been very damaging in part because it has meant when 
we talk about autistic adults at all, which we do very rarely, 
we never talk about their needs. We always talk about it as 
something very recently on the horizon or about to be on the 
horizon, and we have to recognize this is a very serious 
situation. It is a very serious situation now, and it is a 
crisis not of epidemic or public health but of unmet need and 
of human right.
    Mr. Cummings. And that goes to my very question, and maybe 
you can address this, somebody. Tell me the kind of services 
that are lacking that you would like to see provided, again so 
that we can try to figure out how we can use our dollars 
effectively and efficiently to not only--I think it was you, 
Mr. Carley, who said, you know, yeah, we have got to look at 
the future, we have got to do our research--somebody said 
this--but we have got to also make sure that we deal with the 
now because the people in this room, I take it, are going to go 
home, and they are going to have to wrestle with this with love 
and affection 24/7, so while they are--I guess they have two 
situations. One, they are reaching into the future and saying, 
you know what, we want to understand what is happening here, we 
want to know the causes, we want to see if there are cures or 
whatever, we want that; but we also need some help right now, 
right now. And what help is that? I guess that is what I am 
trying to get to.
    Mr. Carley. It is a myriad of things. I mean, for parents 
of more challenged children, we are talking about ABA therapy 
in the home. We are talking about a variety of educational 
strategies. We are talking about an appropriate education and 
perhaps, you know, just some aftercare if the child is 
significantly challenged enough.
    For someone that isn't as challenged, we need much more 
enforcement of IDEA in the schools. The schools are still able 
to circumvent that. I know it is budgetary, but it is still a 
problem that needs to be fixed.
    Adults themselves, they need appropriate housing. Adults 
need therapeutic options. When you grow up living in the 
behavioral minority and you are living in a world that confuses 
you a lot, you need to talk to somebody about that, but most of 
all, especially for adults, those employment programs, putting 
them into being productive use. This is not a population of 
people that are short on brain cells. It is social deficits. It 
is executive functioning issues. It is hidden curriculum 
issues. It can be put to work.
    Now, if I may, though, just backtrack because, again, we 
have heard so much about prevalence rates and the confusion of 
where did these numbers come. Not once have I heard today the 
fact that the DSM-IV, which is what diagnoses people and 
constructs what the criteria is for who deserves a diagnosis, 
not once has anybody said here today that one of the reasons 
for the expanding diagnosis was the expanding criteria to what 
meets a diagnosis.
    First off, the inclusion of Asperger syndrome in 1994 
certainly opened up the book to a plethora of people, including 
myself, who never otherwise beforehand would have qualified for 
an autism spectrum disorder, but even traditional autism, the 
definition was changed in that book.
    I may get these numbers wrong, but in the old book, I 
believe it was six mandatory criteria for a diagnosis of 
autism. So if you got five but not six, back in those days, it 
was mental retardation. Now I believe it is eight optional out 
of a field of 16 possible criteria. That blows those numbers 
off the roof.
    Mr. Cummings. Thank you. I see my time is up.
    Mr. Meehan. Mr. Cummings, it does seem to be. Would you 
want to be recognized for a minute if Mr. Blaxill has a quick 
comment to be made?
    Mr. Carley. I would like to operate on the service question 
if possible.
    Mr. Blaxill. Excuse me, I was talking.
    Mr. Meehan. If you can, we are trying to extend a courtesy 
to allow this important question. Mr. Blaxill, if you will, you 
did raise your hand.
    Mr. Blaxill. Thank you. I want to raise two points just to 
correct the record. First of all, the 1 in 88 numbers, one of 
the problems with what the CDC does is they don't break out the 
categories, so we don't even have the tools to inspect the 
claim that there has been diagnostic expansion if the inclusion 
of Asperger syndrome made a difference.
    To the extent there is data in the CDC numbers, Asperger 
syndrome is a very small proportion of the total categorized 
cases, less than 10 percent, so the notion that we have had 
diagnostic expansion, you know, that dog don't hunt as an 
explanation.
    And DSM-IV, if you actually read what the designers of DSM-
IV wrote about it, they said it was supposed to be a corrective 
narrowing of the diagnosis. That was their intention. So I 
think this notion that we have got diagnostic expansion is a 
dangerous one.
    Another point I want to make, and I didn't have a chance to 
make it, the great unmentionables, vaccines and mercury as 
causation factors. If we have an environmental epidemic, which 
is what I think common sense will tell you we have, we have to 
look at plausible candidates that could possibly explain the 
inflection point that we saw in 1990, and so far, the best 
candidates we have are mercury. And there is a lot of evidence 
that supports mercury as a causative factor and a damaging 
factor, and the vaccine issue is a tough one. There are, 
contrary to what CDC representatives said, there have been no 
studies of the total health outcomes of an unvaccinated 
population as compared to a vaccinated population. The studies 
that have been done cover only one preservative and one 
product. We haven't looked at combinations. We haven't looked 
at the totality, and those studies are often done poorly. And 
what we hear about are the studies the CDC has been done, which 
I would argue, there has been statistical trickery, but if you 
actually look at the record, mercury, for example, there was 
one paper that was written showed that 43 out of the 58 studies 
on mercury and autism or heavy metals and autism were positive. 
It is the other 15 that we hear about in the press.
    So the scientific record is very supportive of the 
environmental concerns that parents and families have. It is 
complicated. There is controversy, obviously. But the notion 
that the controversy is settled or that all the evidence weighs 
on one side, that is politics in science, that is not an issue 
of the evidence.
    Mr. Meehan. Thank you.
    Thank you, Mr. Blaxill.
    Regular order. I now recognize myself for 5 minutes of 
questioning.
    But, Mr. Wright, this testimony today has been revealing, 
and in many ways, what struck me has been the fact that we can 
have been at this issue for so long, and there is such a wide 
divergence just even in the scientific definition of where we 
are, the accurate identification. You have spent a great deal 
of your time, resources, and passion in this issue.
    Now, one of the things I was trying to explore, and I know 
you have been discussing, we have got this Interagency Autism 
Coordinating Committee that the government has, but it seems to 
be missing the mark if we can be so far off on this. So give me 
your impression of what we should be doing right now.
    Mr. Wright. What we need is a national strategic plan. 
There are many government agencies that are doing a lot of good 
things, but they are not necessarily together. The money is 
significant, but it isn't necessarily spent in as thoughtful a 
way as possible. There needs to be a combination of the CDC, 
the NIH, and the FDA as an example to actually undertake the 
correct research, stay with it, especially in safety research 
on vaccines going forward, and there needs to be some place--it 
should be--there should be an assistant secretary of health. 
The ASH title has been around for a long time. Somebody has to 
coordinate all this activity and try to make--that is where you 
bring in services. The NIH doesn't do services. They will just 
tell you that we don't do services. CDC doesn't do services. So 
you have got--but yet it is done inside of Health and Human 
Services, but it is not coordinated. So a national plan, a 
national strategic plan would be what I would advocate to try 
to pull that together. I think it is a very important thing.
    It also involves continuing medical education for 
pediatricians, it also involves going to medical schools. There 
is nothing. You know, mental conditions occupy a fraction of 
time in medical school. Then people go into practice, and what 
we deal with is a lot of ignorance. So you have to keep--that 
has to be organized. So that would be my fondest hope.
    Mr. Meehan. Mr. Badesch, did you have a comment?
    Mr. Badesch. I would just suggest, with all respect, that 
the IF doesn't coordinate.
    Mr. Meehan. I am sorry?
    Mr. Badesch. That the IF doesn't coordinate. And that until 
we recognize, as Mr. Wright says, that we have to look, this is 
a national societal issue. And you can't have a body that is 
tied into, as Mr. Wright said, into a health research mode 
looking at this whole element of autism. The service needs are 
there, the civil rights issues. When you don't have the 
Department of Education sitting at the table or every single 
parent and----
    Mr. Meehan. Or Department of Labor might be another 
suggestion or even the Department of Justice.
    Mr. Badesch. It has to be a coordinated body. And with 
respect to the administration, we have talked to them, and I 
think they understand that now. But it has to start, in our 
opinion, from moving IACC, which as Mr. Smith knows is a great 
concept, but it is in the wrong place, and it has to have a 
societal commitment that we are going to address this need as a 
lifespan issue from birth to death, and until then, we are not 
going to get anything. IACC--I have been the president of the 
Autism Society for a year and a half. IACC, despite what they 
say, they have never approached us, so if they are doing a 
national plan, God love it, you would think they would approach 
the largest grassroots organization. I assume they haven't 
approached most of us at this table. That is a major problem.
    Mr. Meehan. Mr. Blaxill, if I understood your testimony, 
you identified that there has been extensive research going on 
in something that you would suggest isn't even relevant to the 
discovery of what is going on with the genetics, was I correct 
in that?
    Mr. Blaxill. Yeah, that is correct. I mean, we have spent 
tens of millions, hundreds of millions on what I call the great 
autism gene hunt, you know, when common sense would tell you 
that if you have gone from 1 in 10,000 to 1 in 88, something is 
changing.
    Mr. Meehan. Who in addition adopts your position, and why 
would that issue not have been raised prior to today?
    Mr. Blaxill. Well, I think it comes back to the strategic 
planning issue. When a group of us pushed for the Combatting 
Autism Act of 2006, one of the critical provisions of that was 
the idea of a strategic plan to make IACC and to make the NIH 
funding mechanisms accountable to the public.
    I spent 25 years in management consulting. I was a senior 
partner at one of the top management consulting firms in the 
world. If there is anything I can claim to be an expert in, and 
I hate to invoke expertise because that is often a way to keep 
the people out, but I am an expert in strategic planning. And I 
was asked to participate in one workshop at NIH, and I can tell 
you that the process that we were engaged in was an interesting 
one. It had nothing remotely----
    Mr. Meehan. Were you shut out with respect to your 
commentary, or was there----
    Mr. Blaxill. It was just an occasion to gather a group of 
people for a meeting, and the leaders of the NIH did what they 
wanted to do in the first place anyway. It wasn't accountable 
in any meaningful way. They didn't--it was--you got into the 
details, but there was an attempt not to have a strategy. It 
was an attempt to defend the status quo.
    Mr. Meehan. My time is up, but you know one of the things 
that Mr. Issa has clearly stated the intention of this 
committee to continue to look at this, and that would be, you 
would arm us if you would help us with identifying the kind of 
questions that you would like to have asked if we have these 
same individuals from that coordinating committee sitting at 
this table, that would help us articulate in your voices the 
kind of inquiry that would shake that and produce a result that 
would help us deal just on the front end, and I am sympathetic 
to all your issues on the back end as well, but my time has run 
out, and so at this point in time----
    Mr. Wright. I would suggest that those answers might be 
urgency, goals, milestones, time frames, and passion.
    Mr. Meehan. In that order?
    The chair now recognizes Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    And I want to also commend all of you for your patience, 
for your passion, for your interest, and for your hopes because 
notwithstanding the frustration that we all express, if you 
didn't think there was some possibility that something could 
happen, you wouldn't be here, and that is an indication that 
wherever there is life, I have been told, that there is hope.
    You know, I was reminded of a poet who suggested that some 
people see things that are and ask, why; but I dream of things 
that have never been and ask, why not? It seems to me that you 
are saying, why can't we have the services that we need? Why 
can't we have the kind of diagnoses that are accurate and give 
us the best chance and the best possibility? Why can't we even 
find--although we know it is difficult, we know that resources 
are scarce, that money is short, but we also know that 
priorities determine how we use whatever resources that there 
are, and so you are asking really all of those questions.
    I am one who believes that this fellow Sam Cooke was 
probably pretty accurate when he wrote the words about change 
coming, when he says that I was born by the river in a little 
tent, and just like that river, I have been running ever since. 
It may be a long time coming, but I know some change is gonna 
come.
    I can think of illnesses and the way we have handled them 
in the past, and maybe there wasn't much hope. I remember 
living in a county where there was one physician for the whole 
county. Well, it took some time, but there is more than one 
physician in that county now. And so, quite frankly, you give 
me a great deal of hope that there is possibility that when we 
add all of the factors together and when the American people 
will have spoken, we will see some movement, and we will see 
some possibility.
    Mr. Ne'eman, let me ask you, you mentioned this whole 
business of different kinds of disparities, which is something 
that I have been dealing with all of my life. Could you speak a 
little bit more and elaborate on what those disparities are and 
how you see them?
    Mr. Ne'eman. Absolutely. So we know that AfricanAmerican 
and Hispanic children are diagnosed later in life. It was 
mentioned earlier in the hearing that we see lower rates of 
diagnosis in the Hispanic population, and I really thank you 
for asking that question, Congressman, because it gives us an 
opportunity to call attention to the fact that we aren't doing 
a very good job of cultural competency in diagnosis for English 
language learners, for racial and ethnic minorities, for low-
income communities, for women and girls, and also particularly 
for adults.
    When we look at insurance coverage and efforts to address 
insurance coverage needs for individuals on the autism 
spectrum, often the emphasis is very specifically on children, 
and adults are not included in State laws or Federal research 
efforts that emphasize these needs. All of the incidence 
statistics you heard earlier focused on 8-year-olds. We don't 
look at the population beyond that. I also think we can't 
underestimate the role of poverty in this. To be a disabled 
person is to choose essentially between accessing no supports 
or going on the SSI program, which places extremely Draconian 
limits on the income you can earn and what you can save. People 
on SSI can't save more than $2,000 in assets. Until we address 
the systemic poverty that forces people with disabilities, 
including autistic people and our families, to be held behind 
economically, we are not going to be able to address the 
racial, income, and gender disparities in the autism world.
    Mr. Davis. I thank you very much, and let me thank again 
all of our witnesses and all of those who have come, and please 
note that there are some individuals in public office who share 
much of the hope and much of the concern and much of the 
anxiety that you have expressed, and I thank you, Mr. Chairman, 
and yield back the balance of my time.
    Mr. Meehan. Thank you, Mr. Davis, and the chair recognizes 
the skilled capacity with which you were able to get the great 
Sam Cooke into the record.
    The chair now recognizes the gentleman from New Jersey, Mr. 
Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    I want to thank our panelists for their wonderful insights 
and incisive testimony. You know, one of the issues that Mr. 
Badesch raises and admonishes the committee to look at the 
increased Federal response to the needs of adults living with 
autism, and I think that is echoed by other panelists and by 
all of us. We have not done even a scintilla of what we need to 
be doing to address that important issue.
    I would like to focus on older parents, the need for 
support. I think they have few parallels. I have known many 
autistic families, and there is a burden that they carry that 
is so grossly underappreciated, and so many of them do it with 
such grace and with such dignity, great courage, and I think we 
need to recognize that. But what I am finding, and I know we 
all find this, that many of those parents who have older 
children who are autistic, and they are no longer children, 
they are adults, are facing a fright that they may soon pass 
on, what happens to their child, and even physically the 
inability to deal with a, particularly a young man who has got 
strength and they increasingly do not.
    I hosted Chuck Colson's daughter, who wrote a wonderful 
book called ``Dancing With Max,'' who goes through her whole 
life and what it has been like, and that is one of the concerns 
she expressed with us. So perhaps, Mr. Wright or Mr. Badesch, 
if you could speak to it, others as well, this idea of older 
parents and aging out.
    And, secondly, Mr. Wright, if you could, speak to the--you 
laid out five very specific points, pillars for a national 
strategy. We are in the second decade, obviously, and pardon 
me, you know, if you don't like the language, but my wife has a 
severe immunity disease called myasthenia gravis, and a very 
severe case of it, when we talk about defeating and combatting 
and curing, we mean it. She deals with it, and she will say it 
herself. And I do certainly understand where you are coming 
from, but we do need--I think combatting is a way of rousing 
people to say more resources to the fight.
    But, Mr. Wright, if you could speak to the five points, and 
then talk about the older parents and the older children.
    Mr. Wright. There are two. Just right on the table right 
now, there are two service issues that are in front of 
Congress, and one of them is the ABLE Act, which is not 
confined to autistic children, but the disabled, and it is as 
to savings, and that has 240 cosponsors in the House and can't 
get to the floor, but you only need 218 votes. So I would urge 
you to try to get that to the floor and get that passed with 
240 cosponsors. That is something that can help families, 
especially working on aging children when the parents are able 
to put some money into that account.
    The second one is there is sitting out here now that there 
is autism insurance for home or office or wherever in 32 States 
covering 75 percent of the population of the country that has 
to be brought back here to Congress so the ERISA companies, who 
are exempt from that, which are the largest companies in the 
country and occupy roughly half the working population, we now 
have half the working population in the smaller companies 
protected but not the larger ones. That has to be done by 
Congress. That has to get on the table. In past years, that was 
not a difficult proposition. It is an equity issue. You have a 
small grocery store that is local, and they have coverage, and 
the chain store right next door doesn't provide the coverage. 
So there is two issues here that relate again to families and 
to give them service opportunities and hopefully reduce their 
debt burden and especially ABLE, which is a planning issue, 
especially as people age out.
    Housing is an enormous issue. We are going about it on a 
State-by-State basis. I don't know how to bring that to the 
Federal Government at this point in time, but it is going to 
have to get coordinated. It is very difficult.
    Mr. Badesch. I would mention one of the things with aging 
parents, and particularly we now have a large group of 
individuals 80s, 90s, who are the primary caretaker for an 
adult child, 60 or 70. The portability of Medicaid is a major 
issue, because sometimes when that person needs a caretaker, if 
that is the condition, the caretaker lives in another State, 
the individual moves to the State and has to get put on a 
waiting list, it could be 5, 6 years, which makes absolutely no 
sense to us.
    The other issue is I think we have to do a better job of 
working with those parents and providing more options. The lack 
of housing for adults and particularly in community settings is 
dismal, and until we start recognizing, and again I think Mr. 
Ne'eman said this is a civil rights issue, when housing 
authorities don't--when they define their services to 
disabilities as having handicap ramps, they are falling a 
little short. So when we put more services and make those that 
are responsible for certain things in the communities, make 
those services available for people with autism, it is going to 
make it easier for an adult with a child.
    Mr. Blaxill. I want to make a point about aging out and 
services. I think if we think about when the inflection point 
and the increased rate of autism was around 1990 or 
thereabouts, that is about 22 years ago, and so what we are 
looking at, you know, just say that the leading edge of the 
epidemic is 22 years old, those kids are just now leaving the 
special education system. They are well cared for in their 
families by and large, they are cared for in the special 
education system, but as they age out, we are facing a tsunami 
of unmet needs for services, desperate families, aging parents, 
and, you know, the nightmare of every parent late at night at 
the bar when you are talking about these things at get-
togethers is, what happens when my child--when I die, what is 
going to happen to my child when I die because the vast 
majority of these children can't advocate for themselves when 
they become adults. They are going to be disabled. They are 
going to be dependent. They can be abused. They can be taken 
advantage of and not cared for, and with often tragic outcomes, 
and we haven't begun to see the wave of difficulties that we 
are going to face. If we are going to have rational policy, we 
need to face up to that, and it is going to be a massive 
problem.
    Mr. Meehan. Thank you.
    Thank you, Mr. Smith. Did you have----
    Mr. Smith. If I could----
    Mr. Meehan. The chair will indulge you with that.
    Mr. Smith. Just very briefly. You mentioned the Brick 
study, and I invited CDC and the ATSDR to Brick Township. ATSDR 
ruled out that there was environmental pathway. You mentioned 
that there is a black balling. Could you elaborate on that, if 
not now, certainly for the record of environmental researchers 
by NIH.
    Mr. Blaxill. I could certainly provide for the record. We 
have all sorts of private conversations with scientists. 
SafeMinds funds science. We wish we had the resources of Autism 
Speaks. We wish Autism Speaks--and I know Bob is an advocate of 
environmental research, but we would love to see more from 
Autism Speaks. We would love to see more from NIH. We do work, 
a modest amount, so we are in contact with scientists. And the 
private conversations you have with scientists is that there 
are third rails. There are politically incorrect issues. There 
is--there are career consequences for doing a certain kind of 
study, and there have been ritual punishments of certain 
scientists out there, some very public, some more private, and 
there are innumerable, there are many examples of those. That 
is--and when the scientists say, oh, we should let the 
scientists take care of that, no. It is not a self-regulating 
process because, in fact, the leaders of NIH enforce the 
orthodoxy of the scientific establishment, and if you take on 
third rail questions, those are suppressed. We have many 
examples of those. I could provide some more.
    Mr. Meehan. Thank you, Mr. Smith.
    The chair now recognizes the gentleman from Pennsylvania, 
Mr. Kelly.
    Mr. Kelly. Thank the chair.
    Mr. Davis made a good point when he talked about the Sam 
Cooke song about change is gonna come, although in most of our 
lives, there is an old adage that change usually occurs at a 
time of tragedy or crisis. And I think we are far past both of 
those right now.
    I want to redirect, though, a little bit. Mr. McGarry is 
here from Mercyhurst. Mercyhurst recognized this a long time 
ago. I am going to say mid 1980s, right? But then all of a 
sudden, in 2009, you came out with the AIM program, which is 
the Asperger's Initiative at Mercyhurst. Would you share a 
little bit with us what you have been able to do. I know you 
have spoken--I am from Pennsylvania. You have also presented 
internationally what Mercyhurst is doing, some of the 
innovation you have brought in. Again, if you would, tell us 
how you share some of that information, how you are able to 
disseminate to other people because I think there is--once we 
become aware, we can usually fix things. The more awareness, 
the better it is, and we had a chance to visit a little bit 
today. I admire what you have done not only in your academic 
life but in your personal life, I know you are a person of 
passion. If you could share a little bit with the people here 
today with what Mercyhurst is doing in the AIM program.
    Mr. McGarry. Sure. Two parts of the question, what are we 
doing to disseminate information. Mercyhurst participated in 
May in Pennsylvania; we had the opportunity to have the first 
inaugural Conference on Autism in the Higher Education Setting. 
And Mercyhurst and five or six other institutions presented 
there on some of what we are trying to do, and 32 different 
colleges and universities were represented in the audience of 
that conference to learn what they could do to start 
implementing some of the programming and things that we are 
offering.
    What we are offering at Mercyhurst is not rocket science. 
It is not a brand new treatment option. Some folks have talked 
about applied behavioral analysis, and we have collaborated 
with our program at Mercyhurst in ABA, but we are doing a lot 
of tracking in looking at the students and saying we have 
identified four main domains that we feel are very essential 
for our students in the academic setting as well as vocational: 
And they are academic social progress; independence; social; 
and emotional. So we tried to track those four things 
specifically because what we are finding is if our students are 
lacking or having difficulty on two of those domains, the 
probability that they are going to be successful in the higher 
education setting and/or a vocational setting drastically 
decreases. So we are going to continue to kind of work on that.
    Another thing that we are doing is a peer mentoring 
program, and what we found is many of the students in our 
program have been in mentoring partnerships, but they have 
never been the mentor, so we have just recently implemented our 
peer mentoring program where our students do meet with peer 
mentors at the university, but they also are going to be going 
down to social service agencies within Erie that have other 
folks that have severe disabilities and are going in as a 
mentor to them to say, I have accomplished something, I am a 
college student, people said I would never be here, and I am, 
and I want to help you and mentor you in what obstacles you 
need to face and get you through those obstacles as well. So 
that is some of the things we are doing.
    Mr. Kelly. As you and I talked today, we talked about 
employment opportunities, and the idea that these are folks 
that can live a very productive life; they can be a big part of 
what it is we do as a country, and I think it is the awareness. 
And I really appreciate your coming here today and what you 
have done with your life. The more we become aware about it, 
the more we understand how to handle it, the more we can adapt 
and bring these people in with us and understand there is a 
light at the end of the tunnel. We talked to Bill Gates, you 
want to talk about somebody who can be successful that has an 
autism disorder, but if you can, the 24 percent are actually 
employed, right? There is a lot of adults that can't get work. 
Just a little bit of that impact of what we could do to change 
that because I think there is a great opportunity that these 
people have a meaningful life, something that they feel good 
about, that they get up in the morning, and they can't wait to 
contribute.
    Mr. McGarry. Absolutely. Yeah, I think our vocational and 
our internship. Unfortunately, we have a stigma, and we are 
working with students that have autism and are Asperger, some 
of the vocational opportunities that are presented to 
Mercyhurst are far beyond the skills and the caliber of what 
our students can achieve, and so we need to have a strong 
awareness that, as some other panelists have said, autism is 
not necessarily an intellectual issue. If we can train and work 
on some of the social skills and the executive functioning, 
they can far exceed expectations and do some jobs much better 
than the rest of us can. And we just need to train society to 
understand that and give these students the specific skills to 
accomplish that.
    Mr. Kelly. Amen. If I could, Mr. Chairman.
    Chairman Issa. [presiding] Without objection.
    Mr. Kelly. Would you share the conversation we had, and we 
talked about the one student and the professor was outlining or 
giving them an assignment, I thought that was absolutely 
phenomenal because what we see sometimes we don't get it, you 
can't tell a book by its cover. Share that because I thought 
that was really uplifting.
    Mr. McGarry. I had a--in the AIM program, we send a letter 
to every single faculty member stating that this student in 
your class is being supported by the Asperger Initiative, and 
if you or that student need resources, we are available. The 
faculty member contacted me on the second or third day of class 
and said, Brad, this student, I explained an assignment that 
was worth 60 percent of the grade in my course. And the student 
looked at me, and I really am not sure if he understood a word 
of what I was saying, and so can you work with him and help me 
work with him? That assignment was supposed to take 10 weeks. 
That student the following Tuesday turned that assignment in, 
and that professor said it was the most incredible piece of 
student graphic art that he had seen in 25 years. So we know 
that there is a misrepresentation from what we think is being 
heard and what is being processed and the caliber of students 
that we are working with.
    Mr. Kelly. Thank you for being here and thank you for 
dedicating your life to making sure these people do have a 
life.
    Thanks so much, and I yield back, Mr. Chairman.
    Chairman Issa. Thank you, Mr. Kelly.
    As promised, this was a long and well worthwhile hearing. 
We learned a great many things that both we and the public were 
not aware of. We didn't have an opportunity to hear from 
witnesses who had genetic links that they could see in their 
own families. We certainly did not hear from the witnesses who 
are women who recognize in their own lives that the under- 
evaluation because of perhaps differences in behavior between 
men and women lead there to be a discrepancy in recognition and 
a discrepancy in perceived challenge to women versus men.
    We certainly learned that the State of Utah has found a way 
to identify differently or better or more than other States. We 
certainly learned that, in fact, a passive discovery system is 
not going to get us or any other country in the world to an 
accurate number or to seek out people we could help and help 
early. This and more will be things that this committee will 
continue working on as part of the legacy of my predecessor, 
Mr. Dan Burton, for many years. There is nothing we heard today 
that is off limits for us to continue to explore. This 
committee stands ready to take your additional comments and 
questions as promised. There is a C-SPAN audience. We may 
perhaps get additional letters. We will try to include those in 
the record whenever possible.
    Lastly, I don't believe we covered every interest group, 
either, with our witnesses who are here today. So because there 
are so many organizations involved that want to be heard, I 
would only ask all of you, when you work with other 
organizations or groups of individuals, that you explain to 
them that this committee will have a permanent staffing, at 
least as long as I am chair, to try to continue to consolidate 
information and to get government to do its job more 
effectively, more efficiently and, if at all possible, find 
additional funds to continue dealing with all aspects of this 
disease. And with that, this committee stands adjourned.
    [Whereupon, at 5:45 p.m., the committee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
